                                              MINE SAFETY AND HEALTH
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              MSHA COULD NOT SHOW IT MADE THE RIGHT
                                              DECISION IN APPROVING THE ROOF CONTROL
                                              PLAN AT CRANDALL CANYON MINE




                                                                          Date:     March 31, 2008
                                                                 Report Number:   05-08-003-06-001
U.S. DEPARTMENT OF LABOR                                  March 2008
Office of Inspector General
Office of Audit
                                                          WHAT OIG FOUND
                                                          MSHA was negligent in carrying out its
BRIEFLY…                                                  responsibilities to protect the safety of miners.
                                                          Specifically, MSHA could not show that it made the
Highlights of Report Number: 05-08-003-06-001,
                                                          right decision in approving the Crandall Canyon
MSHA Could Not Show It Made the Right Decision
                                                          Mine roof control plan or that the process was free
In Approving the Roof Control Plan At Crandall
                                                          from undue influence by the mine operator. MSHA
Canyon Mine, to the Assistant Secretary for Mine
                                                          did not have a rigorous, transparent review and
Safety and Health, dated March 31, 2008.
                                                          approval process for roof control plans consisting
                                                          of explicit criteria and plan evaluation factors,
WHY READ THE REPORT
                                                          appropriate documentation, and active oversight
In August 2007, "a major coal bump/bounce"
                                                          and supervision by Headquarters and District 9
occurred in the Crandall Canyon Mine (Emery
                                                          management. Further, MSHA did not ensure that
County, Utah) precipitating a tragedy in which nine
                                                          subsequent inspections assessed compliance
men lost their lives: six miners, and three rescue
                                                          with, and the effectiveness of, approved plans in
workers who died attempting to save the miners.
                                                          continuing to protect miners.
At the time of the incident, the mine operator was
conducting a high-risk mining technique known as
                                                          MSHA and mine operator officials worked together
retreat mining in which pillars of coal previously left
                                                          to develop rescue plans related to the August 2007
to support the mine roof are removed to maximize
                                                          tragedy, with MSHA exercising final approval
resource recovery. The Mine Safety and Health
                                                          authority over all activities. MSHA, however,
Administration (MSHA) had previously reviewed
                                                          lacked guidance on appropriate non-rescue
and approved the mine operator’s roof control
                                                          activities.
plans associated with this activity. MSHA also
conducted periodic inspections of the mine, in part,
to assure compliance with the approved plan. The
                                                          WHAT OIG RECOMMENDED
rigor and transparency of the plan approval and
                                                          We made nine recommendations to the Assistant
the mine inspection processes are critical to
                                                          Secretary for Mine Safety and Health designed to:
assuring the safety of miners.
                                                           •   Develop rigorous, standard, and transparent
WHY OIG CONDUCTED THE AUDIT
                                                               processes for the approval, implementation,
In a response to a request from the Senate Health,
                                                               and periodic reassessment of roof control
Education, Labor and Pension Committee, the
                                                               plans, including active management
Office of Inspector General (OIG) conducted a
                                                               oversight.
performance audit to (a) assess whether MSHA’s
process for reviewing, approving, and overseeing           •   Establish explicit criteria and guidance for
the implementation of selected amendments to the               assessing the quality of, and potential safety
Roof Control Plan at Crandall Canyon provided                  risk associated with, proposed plans.
reasonable assurance that miners were protected            •   Re-evaluating the adequacy of existing roof
and (b) report on the decision-making process                  control plans at all underground mines.
used during the August 2007 rescue operations.             •   Clarify the handling of non-rescue activities
                                                               and non-rescue personnel during active
We did not attempt to determine the cause of the               rescue operations.
tragedy. MSHA’s ongoing Accident Investigation
will report those conclusions at a future date.           MSHA concurred with our recommendations and
                                                          stated it has initiated or planned numerous
READ THE FULL REPORT                                      corrective actions.
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2008/05-
08-003-06-001.pdf
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 3
          Finding 1 - MSHA Could Not Demonstrate It Exercised Due Diligence or
             Made the Right Decision in Approving the Plan .............................................. 6
          Finding 2 - MSHA Did Not Ensure that Approved Plans were Properly
             Implemented or Continued to Provide Protections as Conditions in the
             Mine Changed............................................................................................... 17
          Finding 3 -        MSHA Lacked Guidance on Non-Rescue Activities ....................... 23

Exhibits ........................................................................................................................ 29
          1. MSHA Coal Districts SOPs Compared to Required MSHA
               Management Controls.............................................................................. 31
          2. Chronology of District 9 Crandall Canyon Plan Review and Approval .......... 33
          3. 6-Month Roof Control Plan Review (MSHA Form 2000-204) ........................ 37
          4. Summary of 103 (k) Order and Amendments................................................ 39
          5. Summary of Rescue Plans Approved by MSHA August 7, 2007 –
               August 16, 2007....................................................................................... 41
          6. Ground Control Expert Committee ................................................................ 43

Appendices.................................................................................................................. 45
          A. Background ................................................................................................... 47
          B. Objectives, Scope, Methodology, and Criteria .............................................. 53
          C. Acronyms and Abbreviations......................................................................... 57
          D. Glossary of Mining Terms ............................................................................. 59
          E. Agency Response to Draft Report................................................................. 63




                                                                                       MSHA’s Roof Control Plan Reviews
                                                                                            At the Crandall Canyon Mine
                                                                                           Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                                      Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General




Executive Summary
On Monday, August 6, 2007, at approximately 2:52 a.m., "a major coal bump/bounce"
occurred in the South barrier of the Main West pillar section of the Crandall Canyon
Mine (Crandall Canyon), operated by Genwal Resources, Inc. in Emery County, Utah.
The bump precipitated a tragedy in which a total of nine men lost their lives: six miners,
and three rescue workers who died attempting to save the miners.

Crandall Canyon is a bituminous (soft) coal mine in which working depths exceed 2,000
feet below ground. It is co-owned by Murray Energy, Inc. (Murray Energy), a privately
held company and Intermountain Power Agency, a Utah electric cooperative. The mine
operator was conducting “retreat mining” at Crandall Canyon - a high risk underground
mining technique in which miners remove pillars of coal that had previously been left to
support the mine roof. The deeper the mine, the greater the downward pressure on
pillars caused by the weight of the soil, rock, and other materials above the mine. This
pressure can cause pillars to fracture, violently ejecting coal into mine passageways
(i.e., “bump” or “bounce”).

As a result of the Crandall Canyon tragedy, the Senate Health, Education, Labor and
Pension Committee asked the U.S. Department of Labor’s Office of Inspector General
(OIG) to look at the Mine Safety and Health Administration’s (MSHA) roof control “plan
approval process for Crandall Canyon Mine.” Specifically, the Committee requested us
to look at:

   •   The process MSHA District 9 employed to review Murray Energy’s roof control
       plan and the plan amendment that was in effect at the time of the disaster.
   •   The rigor of that review.
   •   Information about how MSHA made the decision to allow rescuers into the
       Crandall Canyon Mine after the initial collapse on August 6, 2007.

Results

MSHA was negligent in carrying out its responsibility to protect the safety of miners.
Specifically, MSHA could not show that it made the right decision in approving the
Crandall Canyon roof control plan. Similarly, the lack of documentation to support the
review and approval of the plan prevented MSHA from showing that the process was
free from undue influence by the mine operator. Despite the critical importance of roof
control to the high-risk retreat mining proposed for the South barrier of Crandall Canyon,
MSHA could not show that it did everything appropriate to ensure the Crandall Canyon
roof control plan was sufficient to protect miners. MSHA did not have a rigorous,
transparent review and approval process for roof control plans consisting of explicit
criteria and plan evaluation factors, appropriate documentation, and active oversight
and supervision by Headquarters and District 9 management.


                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            1                     Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


Once the plan was approved, MSHA could not demonstrate that it had adequately
reassessed the roof control plan at Crandall Canyon or that the mine operator had
properly instructed miners about roof control plans and procedures. During quarterly
Regular Safety and Health Inspections, mine inspectors did not document the work they
performed or the basis for their conclusions in addressing these responsibilities.

MSHA and mine operator employees worked together to develop rescue plans at
Crandall Canyon, with MSHA exercising final approval authority over all activities.
Throughout the rescue effort, specific activities were proposed, discussed, and finalized
during recurring meetings and discussions between MSHA and mine officials. The
resulting approved rescue activities were documented through amendments to MSHA’s
original withdrawal order and written rescue plans. However, MSHA lacked guidance
on appropriate non-rescue activities.

The cause of the tragedy, including what role, if any, the roof control plan might have
played, is the subject of several on-going investigations, and our audit was not designed
to and does not make any such determinations.

Recommendations

The conditions identified in our report can be addressed by MSHA within its current
statutory authority. We made several recommendations to the Assistant Secretary for
Mine Safety and Health designed to:

   •   Develop rigorous, standard, and transparent processes for the approval,
       implementation, and periodic reassessment of roof control plans, including active
       management oversight.

   •   Establish explicit criteria and guidance for assessing the quality of, and potential
       safety risk associated with, proposed plans.

   •   Re-evaluate the adequacy of existing roof control plans at all underground mines.

   •   Clarify the handling of non-rescue activities and non-rescue personnel during
       active rescue operations.

Agency Response and OIG Conclusion

MSHA concurred with all of our recommendations and identified numerous corrective
actions that MSHA has initiated or plans to initiate. However, MSHA stated that our use
of the word "negligent" was misleading and expressed concern that we implied MSHA's
review process had been subject to undue influence. Our findings and conclusions
remain unchanged.




                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             2                     Report No. 05-08-003-06-001
                                                   U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                         Office of Inspector General
                                                 Washington, D.C. 20210




March 31, 2008


                             Assistant Inspector General’s Report



Mr. Richard E. Stickler
Acting Assistant Secretary for
 Mine Safety and Health
U. S. Department of Labor
1100 Wilson Boulevard
Arlington, VA 22209-3939


On Monday, August 6, 2007, at approximately 2:52 a.m., "a major coal bump/bounce"
occurred in the South barrier of the Main West pillar section of the Crandall Canyon
Mine (Crandall Canyon), operated by Genwal Resources, Inc. in Emery County, Utah.
The bump precipitated a tragedy in which a total of nine men lost their lives: six miners,
and three rescue workers who died attempting to save the miners. As a result of this
tragedy, the Senate Health, Education, Labor and Pension Committee asked the Office
of Inspector General (OIG) to look at the Mine Safety and Health Administration’s
(MSHA) “plan approval process for Crandall Canyon Mine.” Specifically, the Committee
requested us to look at:

    •   The process MSHA District 9 employed to review Murray Energy’s initial mine
        plan and the plan amendment that was in effect at the time of the disaster.
    •   The rigor of that review.
    •   Information about how MSHA made the decision to allow rescuers into the
        Crandall Canyon Mine after the initial collapse on August 6, 2007.

Based on the nature of the August 6, 2007, incident at Crandall Canyon, we focused our
work on the roof control plan. Roof control plans identify the methods used in a mine to
control the collapse or shifting of the roof, face and ribs in underground coal mines.

Specifically, we conducted a performance audit of MSHA’s process for reviewing and
approving selected amendments to the existing Roof Control Plan (plan) 1 at Crandall
Canyon. We examined the five amendments that had been submitted during the period
in which Murray Energy Corporation (Murray Energy), co-owned and operated the mine.
We also assessed how MSHA assured that the mine operator was properly

1
 In the context of this audit report, references to a “plan” mean the roof control plan and amendments
unless otherwise stated.
                                                                         MSHA’s Roof Control Plan Reviews
                                                                                At the Crandall Canyon Mine
                                                        3                      Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


implementing and complying with the approved plan. Finally, we obtained information
on the decision making process used during rescue operations at the mine from
August 6, 2007, through August 31, 2007.

We reviewed available documentation and interviewed MSHA personnel involved in the
review, approval, and oversight of the roof control plan amendments to determine
whether MSHA’s process provided reasonable assurance that approved plans protected
miner safety. We also reviewed extensive materials (some of which were redacted) that
were provided by Murray Energy in response to an Administrative Subpoena issued by
the OIG. We attempted to interview employees of Murray Energy and its subsidiaries,
but they declined on the advice of their counsel. Because the OIG does not have the
authority to subpoena or require testimony from non-DOL employees, we were not able
to compel their participation. We also interviewed key MSHA personnel involved in
decision-making during the rescue activities and reviewed related documents.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology and criteria are detailed in Appendix B.

Overall Conclusion

MSHA was negligent in carrying out its responsibility to protect the safety of miners.
Specifically, MSHA could not show that it made the right decision in approving the plan
or that the process was free from undue influence by the mine operator. MSHA did not
have a rigorous, transparent review and approval process for roof control plans
consisting of explicit criteria and plan evaluation factors, appropriate documentation,
and active oversight and supervision by Headquarters and District 9 management.
Further, MSHA did not ensure that subsequent inspections assessed compliance with,
and the effectiveness of, approved plans in continuing to protect miners. Finally,
requirements related to non-rescue activities need to be clarified.

The cause of the tragedy, including what role, if any, the roof control plan might have
played, is the subject of several on-going investigations, and our audit was not designed
to and does not make any such determinations.

Results and Findings

By way of background, MSHA is responsible for administering the provisions of the
Federal Mine Safety and Health Act of 1977 as amended (Mine Act), which charges
MSHA with approving various mine plans, performing periodic inspections of each mine,
and citing mine operators for safety and health violations.



                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            4                     Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


Crandall Canyon is an underground, bituminous (soft) coal mine. It is co-owned by
Murray Energy, Inc, a privately-held company, headquartered in Cleveland, Ohio and
Intermountain Power Agency, a Utah cooperative that generates electrical power for its
member municipalities in Utah and California. Crandall Canyon was operated by
Genwal Resources, Inc., which is a partially-owned subsidiary of UtahAmerican Energy,
Inc., a wholly-owned subsidiary of Murray Energy, Inc.

The type of mining conducted at Crandall Canyon is known as “pillar extraction.” This is
a high risk underground mining technique, designed to increase the amount of coal
reserves recovered, in which miners remove pillars of coal that had previously been left
to support the mine roof. The process is also called “retreat mining” because miners
remove pillars as they “retreat” toward the mine entrance, allowing the unsupported roof
to collapse behind them. The deeper the mine, the greater the downward pressure on
pillars caused by the weight of the soil, rock, and other materials above the mine. This
pressure can result in “bumps” (also called “bounces”) in which pillars fracture and coal
is violently ejected into mine passageways. Since coal mines in Utah are among the
deepest operating in the United States, they are particularly susceptible to these events.

When a mine operator decides to begin an underground mining operation, the operator
develops a roof control plan suitable to the geological conditions and the mining system
used. This proposed plan, and any subsequent revisions, is submitted in writing, to the
MSHA District Manager for approval. Each MSHA District is required to have a
Standard Operating Procedure that defines how proposed plans are to be reviewed and
evaluated. While the Roof Control Specialist in the MSHA District typically handles this
evaluation, the MSHA District Manager is responsible for final approval of all submitted
plans. A mine operator cannot implement a proposed roof control plan or a revision to a
roof control plan before MSHA approves it or before all miners who are affected by the
revision are instructed in its provisions. Approved roof control plans and any revisions
must be available to the miners and representatives of miners at the mine.

Between July 3, 2002, and the August 6, 2007, incident, MSHA approved a roof control
base plan, 5 revisions to the base plan and 11 site-specific amendments. Five of these
site-specific amendments, which related to developing and retreat mining the North and
South barriers of the Main West section of the mine, were submitted and approved after
Murray Energy became a co-owner in August 2006.

Additional background information is contained in Appendix A.

Objective 1 - Did MSHA’s review, approval, and oversight of the Roof
              Control Plan for Crandall Canyon provide reasonable
              assurance that miners were protected?

No, MSHA was negligent in its review, approval, and oversight of the Roof Control Plan
and amendments and in ensuring that Crandall Canyon’s miners were protected.
MSHA could not show that it exercised care in reviewing the Crandall Canyon plan, that
it made the right decision in approving the plan, or that the process was free of undue

                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            5                     Report No. 05-08-003-06-001
                                                  U.S. Department of Labor – Office of Inspector General


influence by the mine owner. Moreover, MSHA could not show that it took sufficient
actions to determine whether the mine operator followed the approved plan, nor that the
plan was sound as implemented and continued to be viable as conditions in the mine
changed over time.

Finding 1 -        MSHA Could Not Demonstrate It Exercised Due Diligence or
                   Made the Right Decision in Approving the Plan

Despite the critical importance of roof control to underground mining operations in
general and to the high-risk retreat mining proposed for the South barrier of the Crandall
Canyon mine in particular, MSHA could not show that it did everything appropriate to
ensure the Crandall Canyon plan was sufficient to protect miners. Specifically, MSHA
did not assure that its districts had an adequate process for reviewing and approving the
plan. Further, MSHA did not require the use of explicit criteria, consideration of
potentially relevant information, creation of a record of plan review activities, nor
provision of active supervision and oversight. With miners’ lives at stake, it is incumbent
upon MSHA to be thorough, to fully evaluate, and to document information leading up to
critical decisions such as mine plan approvals.

MSHA Did Not Ensure an Adequate Standard Operating Procedure for Roof
Control Plan Review and Approval

MSHA’s Program Policy Manual 2 required that each District’s Standard Operating
Procedure (SOP) address 20 minimum controls necessary for proper administration of
the plan and program approval process. Eleven of the twenty items relate to
administrative procedures supporting plan review (e.g., logging, tracking, and required
signoffs); the remaining nine items relate to assessing the plan’s quality, but do not
specify how such assessments should be made. For example, the manual required that
the review identify and evaluate unusual proposals or requests. It does not define
“unusual” nor provide further guidance on how to evaluate such plans.

While MSHA defined a set of minimum controls, each Office of Coal Mine Safety and
Health (Coal) District Office was required to develop its own SOP for reviewing roof
control plans. However, there was no requirement that MSHA headquarters review or
approve these SOPs. As a result, the individual SOPs were inconsistent and did not
include all of the minimum controls.

District 9 was responsible for reviewing the roof control plans at Crandall Canyon. As
summarized in Table 1 below, the SOP for District 9 did not address 12 of these 20
controls.




2
    Release V-33, dated February 2003, pgs. 6-8
                                                                     MSHA’s Roof Control Plan Reviews
                                                                          At the Crandall Canyon Mine
                                                   6                     Report No. 05-08-003-06-001
                                          U.S. Department of Labor – Office of Inspector General


                                        Table 1
          Summary of District 9’s SOP versus MSHA’s Required Controls
               For Review and Approval of Roof Control Plans
                                                                             Included in
                                                                                SOP?
                        Administrative Controls
   1     Completion of final staff review at District Office                 No
   2     Sets time frame for approving request (days)                                Yes
   3     Records date received                                                       Yes
   4     Records plan's progress through approval procedures                 No
   5     Shows date approval or denial letter mailed to operator             No
   6     Shows distribution of mailing                                               Yes
   7     Uniform mine file is current                                                Yes
   8     Identifies date for formal review                                   No
   9     Check that required information is submitted                                Yes
         District Manager receives recommendations to approve
   10                                                                        No
         or disapprove plan.
         Promptly provides approvals or amendments to field office
   11                                                                                Yes
         supervisors for inclusion in uniform mine file.
                           Qualitative Controls
         Ensure that miners' representatives comments are
   12                                                                        No
         addressed
   13    Identify and evaluate unusual proposals or requests                 No
         Evaluate plan for provisions contrary to standards or
   14                                                                                Yes
         regulations
   15    Check mine files for information related to plan adequacy                   Yes
         Check for communication with other plan approval
   16                                                                        No
         groups, when appropriate
   17    Technical specialist does on-site review, as necessary              No
         Acquire and consider field office input from local
   18                                                                        No
         inspectors and address recommendations
         Designated MSHA personnel contact operator for
   19                                                                        No
         additional information
         Discuss results of on-site evaluation with operator and
   20                                                                        No
         identified miners' representatives
                                                                              12       8

District 9’s SOP was largely concerned with administrative procedures and
correspondence control, such as logging plan amendments into the Mine Plan Approval
system and completing the reviews within 45 days of receipt of an amendment.
Although not one of the required controls, District 9’s SOP contained a Roof Control
Review Checklist that listed relevant regulatory requirements and provided technical
guidance for review. However, District 9 staff told us that the checklist was rarely, if


                                                             MSHA’s Roof Control Plan Reviews
                                                                  At the Crandall Canyon Mine
                                           7                     Report No. 05-08-003-06-001
                                                  U.S. Department of Labor – Office of Inspector General


ever, used to review plans. The Roof Control Supervisor stated he never used the
checklist, and that the checklist was used only as a training guide for new employees.

Our review of the 11 Coal Districts’ SOPs revealed that none of the SOPs addressed all
of the controls MSHA Headquarters required. On average, the 11 District SOPs for roof
control plans addressed only 14 of the 20 minimum controls, with the number of
unaddressed controls ranging from 2 in District 6 to 12 in District 9. For an analysis of
the Coal District SOPs by district, see Exhibit 1.

The extraordinary risk associated with retreat mining necessitates the highest degree of
care, scrutiny, and transparency in MSHA’s process for approving such activity. Just as
airlines and hospitals rely on well-documented procedures and redundant controls and
checklists to ensure every procedure is complied with to ensure safety (and to create a
record should there be a need for subsequent review), so too should MSHA establish
and document compliance with comprehensive, well-defined procedures for plan review
and approval.

MSHA Did Not Provide Policy Guidance and Regulation for Defining and
Using Roof Control Plan Evaluation Criteria

MSHA did not provide the District Managers with guidance on how to select and use
criteria for evaluating the acceptability of proposed plans. As a result, plan approval
criteria were left to the discretion of each individual District Manager. In addition, MSHA
did not require that District Offices document whatever criteria they did use in assessing
a specific plan. Moreover, MSHA Headquarters rarely reviewed plan approval
decisions 3 its District Managers made or the underlying evaluation criteria applied in
making the decisions. This created a risk that appropriate criteria were not considered
or that consistent criteria were not used for similar circumstances. In turn, this reduced
the confidence that approved plans adequately protected miner safety.

Approval of Crandall Canyon Plan. For Crandall Canyon, the District Manager stated
that he relied on the professional experience and expertise of the Roof Control
Supervisor to review and recommend approval of the plan. The Roof Control
Supervisor, in turn, stated that he relied on his knowledge and prior experience with
individual mines, including past success in pillar extraction (retreat mining), in assessing
whether the proposed plan was adequate. He stated he viewed roof control as unique
to each mine. However, as previously noted, the Roof Control Supervisor did not
document the specific criteria he used in evaluating Crandall Canyon’s plan.

Regarding the Roof Control Supervisor’s reliance on past success with pillar extraction
in mines, such reliance carries risk when applied to an environment that changes
constantly, as is the case with mining. This was especially true when a plan involved a
high-risk activity such as retreat mining for a mine, like Crandall Canyon, whose depth
increased the possibility of unpredictable bumps. The District Manager was responsible

3
  MSHA Headquarters conducts a review of each District Office once every 2 years. These reviews
include a review of required plans and enforcement activities for a selected mine(s).
                                                                        MSHA’s Roof Control Plan Reviews
                                                                              At the Crandall Canyon Mine
                                                   8                         Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


for judging the acceptable level of risk involved in a roof control plan the Roof Control
Supervisor submitted for approval. However, because MSHA did not require that
District Offices to document the explicit criteria used in assessing a specific plan and the
District Manager did not require such documentation in his SOP, he made the approval
decision without such information.

Regulation and Policy Guidance. Although Title 30 of the Code of Federal
Regulations (CFR) section 75.222 identifies specific items to be considered in the
evaluation of roof control plans (e.g., distance between roof bolts, size and spacing of
pillars, etc.), it gives the District Manager broad discretion to adjust those criteria.

       This section sets forth the criteria that shall be considered on a mine-by-
       mine basis in the formulation and approval of roof control plans and
       revisions. Additional measures may be required in plans by the District
       Manager. Roof control plans that do not conform to the applicable criteria
       in this section may be approved by the District Manager, provided that
       effective control of the roof, face and ribs can be maintained.
       (30 CFR 75.222(a))

While the above regulation provides the District Manager discretion to approve
non-conforming plans, provided that “effective control of the roof, face and ribs can be
maintained,” it does not specify how the District Manager is to demonstrate the basis for
determining that effective control will be maintained. Neither the regulations nor existing
MSHA materials provide the District Managers with guidance to determine when
adjustments to the regulatory criteria are appropriate.

In addition, MSHA policy does not provide the District Managers with guidance on
performing a risk assessment of plans, including how to (a) identify specific risk factors
in a plan (e.g., depth of cover, mining method), (b) determine the overall level of risk
associated with a specific plan, or (c) decide whether that level of risk is acceptable.

Computer Models. Although computer models (such as those produced by the
National Institute for Occupational Safety and Health or NIOSH) are used to calculate
load-bearing capacities and stability factors of pillars during retreat mining, MSHA has
not issued any policy or regulatory guidance on the use of such models. NIOSH models
were used by Murray Energy’s contracted engineering firm to develop and support the
viability of the roof control plans for Crandall Canyon.

After the August 2007 incident, NIOSH used its computer modeling programs to analyze
the roof control plan for Crandall Canyon. Its analyses and related conclusions differed
from those of the mine operator’s engineering firm. For example, NIOSH used the
model’s default value for “coal strength” while the engineering firm used a higher coal
strength value. NIOSH described the engineering firm’s analyses as “very
unconservative” and concluded that it had overstated the coal and remnant barrier pillar
strengths in the mine. Subsequent to the Crandall Canyon incident, NIOSH made
modifications to its model. One of these modifications states that the reliability of the

                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                             9                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


NIOSH model decreases substantially when coal strength values other than the default
value are used.

MSHA Did Not Always Require or Consider Potentially Relevant Information
as Part of Roof Control Plan Review

We identified four sources of potentially relevant information that were not considered in
the Roof Control Supervisor’s review and District Manager’s approval processes for
Crandall Canyon: (1) input from mine inspectors, (2) MSHA’s Technical Support
Directorate, (3) historical seismic activity in the area of the mine, and (4) inspections of
the mine conducted by personnel at the Bureau of Land Management.

   1. Input from Mine Inspectors. One control that was not included in District 9’s SOP
      required the District Office to consider input from local inspectors during the
      review of roof control plans. Inspectors regularly travel the mine in completing
      inspections. As a result, they have specific knowledge of conditions within the
      mine, including those related to roof control. While the Roof Control Supervisor
      stated that he obtained field office input prior to approving plans at Crandall
      Canyon, inspectors in District 9’s local field office in Price, Utah, stated that they
      were not contacted prior to approval of any of the amendments to Crandall
      Canyon’s plan.

   2. Assistance from MSHA’s Tech Support Directorate. The mission of the Roof
      Control Division of MSHA’s Pittsburgh Safety and Health Technology Center
      (Tech Center) is to provide engineering and geological technical services
      concerning the evaluation of roof support systems, mine design, and actual
      ground conditions at surface and underground mining operations. The Tech
      Center Director stated that they do not normally get involved in the review of roof
      control plans unless asked. Roof control specialists can, however, request
      assistance through MSHA Headquarters. District 9 did not request assistance
      when reviewing Crandall Canyon’s plans. The District 9 Manager stated that the
      Tech Center is not large enough to get involved in all plan approvals and he did
      not believe that they would have come up with a “different answer” related to
      Crandall Canyon’s plans.

       We agree that resource limitations and varying degrees of risk associated with
       different plans may make it impractical and unnecessary to involve the Tech
       Center in every plan review. However, the Tech Center exists for a reason and,
       when faced with high-risk (e.g., retreat mining) or unusual plan requests (e.g.,
       barrier mining or mining under deep cover), the additional expertise and analysis
       available through the Tech Center would strengthen the overall plan review,
       assessment, and decision.

   3. History of Seismic Activity. In mines located in the Western portion of the United
      States, “bumps” are normal and necessary to relieve the pressure of tremendous
      overburden as a result of mining in mountainous terrain. These “bumps” are

                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             10                    Report No. 05-08-003-06-001
                                        U.S. Department of Labor – Office of Inspector General


   often significant enough to be measured and recorded on monitoring equipment
   that routinely document seismic events. Data on seismic activity, which would
   include “bumps,” in the area of Crandall Canyon mine, were available from the
   University of Utah’s Seismograph Station. The frequency and severity of these
   events could be a useful part of an overall assessment of the risk associated with
   retreat mining in these areas. MSHA District 9 could have reviewed this
   information when evaluating the risk associated with retreat mining at Crandall
   Canyon, but did not. The District Manager stated that he does not see predictive
   value in historical information on “bumps” and that he knows of no correlation
   between underground events and seismic events detected that has analytical
   use.

4. Bureau of Land Management Inspection Results. As part of its mission, the
   Department of the Interior’s Bureau of Land Management (BLM) inspects mines
   on Federal land at least four times a year to ensure the mine operator is meeting
   the terms of the lease. BLM had a lease with Crandall Canyon because the
   North barrier and part of the South barrier are on Federal land. The BLM
   inspector told us that, on a typical inspection, he verifies the height and width of
   the areas mined and pillar sizes. The focus of the BLM inspections was on
   estimating coal production and not miner safety. However, inspection reports
   prepared by a BLM inspector as a result of three separate inspections he
   conducted at Crandall Canyon during Calendar Year (CY) 2007 sometimes
   contained observations regarding adverse mine conditions and possible safety
   risks.

   In a report, dated July 12, 2007, based on his inspection of the North barrier on
   February 27, 2007, the BLM inspector wrote, “I have been concerned about
   pulling pillars in this environment with mining a narrow block with little coal
   barriers to mined out blocks on both sides … So far no inordinate pillar stresses
   have been noted, though thing[s] should get interesting soon.” BLM conducted a
   special inspection on March 15, 2007, after a severe bump in the North barrier on
   March 11, 2007, caused the mine operator to discontinue mining in that area and
   before BLM approved termination of this lease obligation. The BLM inspector’s
   report, dated August 13, 2007, noted “Entryways … had extensive rib coal
   thrown into the entry way,” “Stress overrides … were very concerning,” and “[A
   mine engineer for the mine operator] said the risks are too great that this event
   will happen again ….” Although this latter report was not finalized until after the
   Crandall Canyon accident, the inspector’s observations could have been
   provided verbally if an agreement to exchange information had been in place.

   Although MSHA was aware that BLM conducted mine inspections, it did not have
   a memorandum of understanding, or other mechanism, to share inspection
   results or information. District 9 only became aware of the BLM inspector’s
   observations after the August 6, 2007, tragedy.



                                                           MSHA’s Roof Control Plan Reviews
                                                                At the Crandall Canyon Mine
                                         11                    Report No. 05-08-003-06-001
                                    U.S. Department of Labor – Office of Inspector General


According to the Roof Control Supervisor, the mine operator had not reported to
MSHA the severity of damage the March 2007 bump caused. Although the mine
operator did inform MSHA that there had been an event when it decided to
discontinue mining the North barrier, the operator did not submit a written
accident report. MSHA regulation 30 CFR 50.10 states:

      The operator shall immediately contact MSHA…at the toll-
      free number…once the operator knows or should know that
      an accident has occurred.

30 CFR 50.20 requires the mine operator to submit a written report of the
accident (Form 7000-1) to MSHA within 10 working days.

30 CFR 50.2(h) states in part:

      (h) Accident means …
           (8) An unplanned roof or rib fall in active workings that impairs
               ventilation or impedes passage.
           (9) A coal or rock outburst that causes withdrawal of miners or which
               disrupts regular mining activity for more than one hour.

As previously noted, we were not able to interview officials of Murray Energy to
determine why they believed this event was not reportable. We did note in
documents received from Murray Energy an assertion that local MSHA officials
had agreed to a definition of a “reportable accident” that was less stringent than
existing regulations. In an internal Genwal Resources, Inc. memo dated
May 1, 2006, discussing an earlier, longwall mining operation at Crandall, a mine
official wrote:

      … Meeting was held at the Price field office with Ted Farmer
      and Bill Taylor in relation to the bounces and the reporting of
      such as referred to Part 50.2(h) and the definition of accident
      as it occurs on the longwall face. A consensus of the group
      was if the bounce occurs and it basically, does not cause
      harm to personnel then the reporting of the event does not
      need to be done …

This memo was written three months before Murray Energy obtained ownership
in the mine, but the memo’s author was employed by the mine operator both
before and after Murray Energy’s ownership.

Ted Farmer and Bill Taylor acknowledge that a discussion of this regulatory
reporting requirement did take place at the initiative of the mine operator.
However, they deny that the discussion included any mention of adjusting the
definition, much less an agreement. To further support its assertion that it had
not agreed to a modification of the regulation, MSHA identified two citations that

                                                       MSHA’s Roof Control Plan Reviews
                                                            At the Crandall Canyon Mine
                                     12                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


       it had issued to nearby mines owned by Murray Energy for violations of reporting
       requirements. In April 2007, MSHA cited the Aberdeen Mine for not immediately
       reporting “a pressure bounce/bump with floor heave” that occurred in a longwall
       section. In July 2007, MSHA cited the West Ridge Mine for not immediately
       reporting “a non-injury accident” in a longwall section. MSHA officials stated that
       had the revised definition been agreed to as described by the Crandall Canyon
       mine operator, neither of these citations would have been issued.

       Whatever the reasons, MSHA did not receive complete information regarding the
       bump (from BLM or the mine operator) and did not pursue additional information
       (including conducting its own inspection of the area, see p. 19 for a further
       discussion of this issue). Had there been a mechanism in place for MSHA to
       receive the BLM inspection results, the Roof Control Supervisor’s review might
       have been more detailed or asked more questions about the bump to ensure the
       safety of miners working the South barrier.

Third-Party Engineering Reports. In addition to the proposed plan, mine operators
may submit additional supporting documents, such as engineering analyses. Since
MSHA does not require such reports, they are available only on a voluntary basis from
the mine operator. When they are provided, MSHA has no guidance on how these
analyses should be validated or used in the plan review process.

When Murray Energy submitted its proposed amendments to the roof control plan, it
provided MSHA with related reports from an external engineering firm. The reports
included a narrative summary and diagrams of computer modeling results related to the
proposed plans and recommendations aimed at reducing safety risks. The Roof Control
Supervisor stated that he did review these reports prior to recommending approval of
the plans (see p. 14 for a discussion of changes the Roof Control Supervisor made to
the plan that were contrary to the engineering report), but there were no records to
show if/how he validated or used this information in his overall plan review.

The engineering report that Murray Energy submitted with its proposed plan to extract
pillars in the South barrier contained particularly useful information. In this report, the
engineering firm discussed the mine operator’s decision to cease mining in the North
barrier as a result of “heavy damage” caused by “a large bump.” The report stated that
the engineering firm was able to “analyze the stress and convergence conditions at the
time of the bump and modify the pillar design accordingly to control the potential for
similar events in the south barrier.” The report recommended increasing the pillar size
from the 80’ by 92’ that had been used in the North barrier to 80’ by 129’ in the South
barrier. The report concluded that “This size of pillar is expected to provide a reliable
level of protection against problematic bumping for retreat mining under cover reaching
2,200 ft.” Although MSHA had not conducted its own inspection of the impacts of the
March bump in the North barrier, it was informed by the mine operator within days that
an event had occurred. In addition, the April 18, 2007, engineering report discussing
the nature and severity of the bump was provided to MSHA on May 15, 2007.
Therefore, MSHA had sufficient information to warrant further inquiries about the bump

                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             13                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


and their meaning prior to considering and approving the proposed plan for the South
barrier.

MSHA District 9 Did Not Document the Plan Review Process or the Basis for
Approval

In reviewing and approving the roof control plan, District 9 did not document how it
evaluated the proposed plans or on what basis it approved them. Other than a
summary of events the Roof Control Supervisor prepared from memory after the
August 6, 2007, mine tragedy, there were few supporting documents related to the
reviews and approvals of the plan. As a result, MSHA could not demonstrate the
activities comprising the plan review process, nor could District 9 demonstrate that it
even followed its own SOP (however insufficient it might be) in reviewing and approving
the plan amendments.

Because of the lack of written records, much of the information we obtained about
MSHA’s process for reviewing the proposed plan amendments came from interviews of
MSHA personnel involved in the process or from a memo the Roof Control Supervisor
prepared on August 14, 2007. However, after-the-fact interviews, as well as written
records created from memory a significant period of time after the events occurred, are
less reliable than contemporaneous records. This is due to the passage of time and
also because the information recorded after the tragedy might have been influenced by
the potential for criticism if it were demonstrated that individuals had not adequately
fulfilled their responsibilities. While we were occasionally able to corroborate or validate
this information through other sources or documents, overall there was insufficient
documentation to assess the veracity of the information provided in interviews and of
records created after August 6, 2007.

For example, prior to requesting MSHA’s approval to mine the barriers, the mine
operator provided District 9 with two reports prepared by its contracted engineering firm.
According to the Roof Control Supervisor, a first-year roof control engineer ran a NIOSH
computer model which identified inconsistencies in the proposed plan. In a letter dated
November 21, 2006, the District Manager asked the mine operator to explain these
inconsistencies. The Roof Control Supervisor stated that District 9 Roof Control staff
subsequently met with the operator and satisfactorily resolved the differences between
the two analyses in favor of the mine operator’s engineering results. However, no
written record of the content of the meeting or the basis for resolving the inconsistencies
was prepared at that time. In a memo prepared after the August 2007 incident, the
Roof Control Supervisor identified coal strength and modeling of the Main West pillars
as two issues that had been resolved.

Another example of MSHA’s inability to demonstrate it made the right decision relates to
a revision the Roof Control Supervisor required in one plan. Before recommending
approval of the mine operator’s proposal to extract pillars in the South barrier, the Roof
Control Supervisor required that the plan be revised to leave additional pillars near a
bleeder entry. This would appear to conflict with the recommendation of the mine

                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             14                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


operator’s engineering firm that “skipping [not removing] pillars should be avoided in the
south barrier ….” The Roof Control Supervisor stated that he did not discuss his
required change with anyone from the engineering firm or perform new computer
modeling because leaving additional pillars increased the stability of the mine. Officials
from the engineering firm confirmed to the OIG that leaving these pillars was contrary to
the suggestions in their report, but were uncomfortable assessing the potential impact
because they lacked specific information about the revision. As a result, MSHA could
not demonstrate what effect, if any, the required change had on the plan’s acceptability.
A complete chronology of the exchanges regarding the additional pillars and MSHA
District 9’s review and approval of the plan can be found in Exhibit 2.

Lack of documentation also prevented MSHA from demonstrating that District 9 had
followed its own SOP in completing the plan reviews. Besides not having addressed 12
required controls in its SOP, District 9 had no documentation to support the completion
of several key tasks in its SOP. While MSHA HQ officials stated that not all of these
tasks would have applied to the conditions and circumstances at Crandall Canyon,
District 9 had also not documented those judgments. Therefore, we could not confirm
whether the plan review process had included:

 1. Requesting comments, copies of plan review forms and previous roof control
    citations from the field office.
 2. Obtaining the accident and injury report for the past 3 years.
 3. Reviewing the accident and injury report for roof falls, rib failures, and / or
    bounces.
 4. Reviewing comments from the roof control specialist or field office supervisor.
 5. Documenting an explanation for not using or addressing comments from the field.
 6. Reviewing plan review forms and previous roof control citations issued since the
    last plan review.
 7. Checking the projected mining in relation to overlying and underlying workings.
 8. Checking the projected mining in relation to overlying bodies of water.
 9. Assessing the overall design to ensure that the operator was not creating future
    problems.
 10. Assuring the plan contained required safety precautions for operating remote
     control continuous mining machine and ATRS roof bolter.
 11. Describing the method of protecting persons from falling material at drift openings.
 12. Comparing the materials in the roof control plan to materials in the ventilation plan.

As a result, MSHA could not demonstrate that it adequately evaluated the potential
safety risks and made the right decision in approving the plan. In addition, without a
written record of MSHA’s actions leading up to its approval of the plan, MSHA had no
capability to evaluate actions taken to determine whether mistakes were made in
reviewing the plan or process improvements were needed. Further, the lack of a written
                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             15                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


record of the plan review process denied MSHA and others the ability to verify
information that would be potentially important to the investigations following the
August 6, 2007, tragedy. Perhaps most importantly, without a well-defined and
documented protocol, MSHA had no control over the introduction of human error into
the plan approval decision-making process. Because the deficiencies were caused in
part by the lack of an adequate process, they are likely to exist across all Coal Districts
nationwide.

MSHA Headquarters and District Management Provided Little or No
Supervision of the Plan Approval Process

Although MSHA regulations place the authority to approve mine plans with the District
Manager, the District 9 Manager relied on the professional judgment of the Roof Control
Supervisor, as has been discussed. The District’s approval process consisted of a
cursory review by the Assistant District Manager and District Manager of the Roof
Control Supervisor’s recommendations, assurance that the Roof Control Supervisor’s
name was on the plan, and a review of the content of the approval letter.

The District Manager said that MSHA Headquarters was rarely involved in the approval
process. He said MSHA Headquarters would only get involved if the plan involved a
“hot topic … like Emergency Response Plans.”

The lack of active supervision of the decisions of the Roof Control Supervisor, coupled
with inadequate documentation of activities carried out as part of the approval process,
left MSHA incapable of accounting for and demonstrating the soundness of its decision
to approve the roof control plan.

MSHA Cannot Show Process Was Free From Undue Influence by Mine
Operator

The Committee also requested information on whether Murray Energy had improperly
influenced the review and approval of the plans. Documents we reviewed as part of our
audit indicate that the mine operator had requested that MSHA “expedite” plan reviews.
For example,

   •   The mine operator submitted a plan to extract pillars in the North barrier on
       December 20, 2006. In an internal company memo, a mine official states that in
       a February 1, 2007, meeting “[The District manager and I] discussed the need for
       approval of the [North barrier] pillaring plan at Crandall within the next twenty
       days. He said he would help expedite the process.” MSHA approved the plan
       on February 2, 2007.

   •   The mine operator submitted a plan to extract pillars in the South barrier on
       May 16, 2007. In a June 13, 2007, email to the Roof Control Supervisor, a mine
       official wrote “I am in a staff meeting right now and they are all asking when the
       plan for the [South barrier] pillaring in Crandall will be approved … I have a fire

                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             16                    Report No. 05-08-003-06-001
                                                  U.S. Department of Labor – Office of Inspector General


          under my axxxxxx to get this approved. I need your help.” In a June 14, 2007,
          email the mine official wrote, “Are you making any headway? Is there anything I
          can do to help you?” MSHA approved the plan on June 15, 2007.

In looking for indications that MSHA had bowed to pressure from the mine operator, we
attempted to compare MSHA District 9’s review and approval process for the Crandall
Canyon plan to the process it used at mines Murray Energy did not own. A less
rigorous plan review process at Crandall Canyon would have been one indication that
Murray Energy had received preferential treatment. However, the lack of plan review
documentation for all the plans we reviewed prevented us from making this comparison.

MSHA offered examples of strong enforcement actions as indications that it had not
provided preferential treatment to Murray Energy. On October 26, 2006 and
June 20, 2007, MSHA issued citations at the Aberdeen Mine operated by Andalex
Resources, Inc. and owned by Murray Energy. These citations were subsequently
determined by MSHA to represent “flagrant violations” because of repeated violations of
the same safety standards. Flagrant violations carry potential penalty assessments up
to $220,000 each. On March 20, 2008, MSHA announced that it had assessed
penalties of $220,000 and $200,300 respectively for these flagrant violations.

These citations against another Murray Energy owned mine may indicate the absence
of preferential treatment in these specific enforcement actions. However, the absence
of documentation specific to the roof control plan review process at Crandall Canyon
prohibited us from concluding whether the mine operator had received preferential
treatment in these decisions and prevented MSHA from showing that its approval
process was free from undue influence by the mine operator.

Finding 2 -        MSHA Did Not Ensure that Approved Plans were Properly
                   Implemented or Continued to Provide Protections as
                   Conditions in the Mine Changed

Once the plan was approved, MSHA had a responsibility to ensure that the mine
operator correctly implemented the plan and that the plan continued to provide
adequate protection to miners as conditions in the mine changed. MSHA conducted
quarterly Regular Safety and Health Inspections 4 at Crandall Canyon, but inspectors
did not document the work they performed to assess (a) the mine operator’s efforts to
instruct miners in implementing the plan or (b) the continued adequacy of the plan. In
addition, MSHA neglected to address important information regarding a “bump” that
related to the adequacy of the roof control plan during a Fiscal Year (FY) 2007
inspection of the mine. Therefore, MSHA could not demonstrate that it had adequately
re-assessed the roof control plan at Crandall Canyon on a periodic basis or that the
mine operator had properly trained miners about roof control plans and procedures.




4
    Section 103(a) Federal Mine Safety and Health Act of 1977, as amended.
                                                                      MSHA’s Roof Control Plan Reviews
                                                                           At the Crandall Canyon Mine
                                                    17                     Report No. 05-08-003-06-001
                                               U.S. Department of Labor – Office of Inspector General


MSHA Inspectors Did Not Verify Miners Were Instructed in the
Implementation of the Roof Control Plan

Mine operators are required to train miners in general safety procedures and in the
specific tasks related to the duties and tasks they are assigned. Federal regulation 30
CFR 75.220(d) requires that the mine operator instruct all affected miners about
amendments to a roof control plan’s provisions before implementing them. The intent of
the regulation is to ensure that miners understand changes in mining procedures and
know how to perform new tasks safely. District 9 approved five amendments to the
mine operator’s plan between November 2006 and June 2007. The MSHA Inspection
Handbook requires that, during each quarterly Regular Safety and Health Inspection,
the inspector review a sufficient number of training records to determine if required
training was provided. The inspector is also expected to discuss the contents of the
training with a representative number of workers to evaluate the quality of training. 5

District 9 Managers stated that inspectors reviewed miners’ training records. One
inspector explained that he randomly reviewed training records kept at the mine by
looking at training dates and new hire dates. He also stated he examined whether
annual refresher or new task training was provided and ensured miners signed training
records. However, none of the inspectors’ notes for the inspections conducted at
Crandall Canyon from December 2006 through July 2007 documented that an inspector
reviewed training records, talked with miners to determine if they had received sufficient
training, or questioned miners to determine if the mine operator had instructed them on
changes to the roof control plan. Therefore, MSHA could not demonstrate that it did
everything appropriate to ensure that miners, at the time of the inspections, were
qualified to perform their assigned jobs.

Inspectors Did Not Properly Conduct and Document Assessments of the
Continued Adequacy of the Roof Control Plan

Federal law requires that MSHA review and document the continued adequacy of a
mine’s approved plan at least every 6 months. 6 District 9 completed this task more
frequently than required by including it in the mandatory quarterly Regular Health and
Safety Inspections conducted at the mine. Inspection records during CYs 2006 and
2007 document that inspectors repeatedly judged the roof control plans to be adequate.
However, the inspection records do not document the specific work performed to make
such determinations or the basis for these conclusions. As a result of these
deficiencies, MSHA could not demonstrate that the continued adequacy of the plan was
properly evaluated.

For the required 6-month roof control review, MSHA’s Coal Mine Inspections Handbook
requires that the inspector assess the adequacy of the roof control plan based on


5
  See MSHA Handbook Series, U. S. Department of Labor Mine Safety and Health Administration, Coal
Mine Safety and Health January 2006. Handbook Number: PH06-V-1, page 15.
6
  Section 302(a) Federal Mine Safety and Health Act of 1977, as amended.
                                                                    MSHA’s Roof Control Plan Reviews
                                                                         At the Crandall Canyon Mine
                                                  18                     Report No. 05-08-003-06-001
                                              U.S. Department of Labor – Office of Inspector General


personal observation and information obtained from the mine operator and miners. 7
The Coal Mine Inspections Handbook requires the 6-month assessment to be
documented on a Plan Review Form (MSHA Form 2000-204). The form allows the
inspector to check one of two boxes labeled “Adequate” or “Deficiencies in Plan.”
Space is provided on the form for narrative information, if needed (see Exhibit 3 for a
copy of Form 2000-204).

District 9 Inspectors stated that, to assess the adequacy of plans, they observed miners
working, and generally checked numerous conditions, including spacing between bolts
in the roof, scaling, and voids or separations between roof segments. Inspectors stated
they also compared their observations with the roof control plan to ensure the operator
was following it properly. However, there was no documentation of these activities at
Crandall Canyon in the inspection files. Typically, the inspectors checked the
“Adequate” box on the form but added minimal, if any, narrative. None of the
inspectors’ supporting notes contained documentation that the inspector talked with the
operator or miners about roof control conditions.

During an inspection conducted between March 13 and March 29, 2007, an inspector
neglected to observe, document, and address conditions in an area of the North barrier
where a bump had occurred March 11, 2007. The bump forced the operator to pull out
of an area where workers were extracting pillars under an MSHA-approved plan. The
inspector stated that the mine operator informed him that workers had been removed
from the North barrier area due to “rough” conditions, but did not indicate that a bump
had occurred. The mine operator further told the inspector that they had marked off this
area of the mine with “danger tape” and had initiated plans to permanently seal the
area. The inspector did not question why the seal was being installed or its relationship
to the retreat mining going on at the time. Because of the plans to seal the area, the
inspector decided not to expend inspection time directly observing this area. On
March 28, 2007, the inspector signed off on the Plan Review Form that the roof control
plan was adequate, but provided no information on the form or in his notes to support
that assessment. In addition, his inspection records contain no mention of the
information provided by the mine operator concerning the North barrier area. The
March 11 bump and the mine operator’s decision to abandon and seal the North barrier
area directly related to the adequacy of the roof control plan at that time. However, the
inspector concluded the plan remained adequate without personally inspecting this area
of the mine.

The inspectors who conducted the quarterly inspections at Crandall Canyon told us that
their inspection activities included talking with miners working at the mine at the time of
the inspections. However, there is no documentation of the content or results of these
conversations. We noted in an internal Genwal Resources, Inc. email dated
March 2, 2007 obtained after the tragedy, that the mine operator was apparently mining
coal from the floor of the mine, which was contrary to the approved roof control plan.

7
 MSHA Handbook Series, U.S. Department of Labor, Mine Safety and Health Administration. Coal Mine
Safety and Health January 2006. Handbook Number: PH06-V-1, page 11. MSHA updated this
Handbook in January 2008.
                                                                MSHA’s Roof Control Plan Reviews
                                                                      At the Crandall Canyon Mine
                                              19                     Report No. 05-08-003-06-001
                                                U.S. Department of Labor – Office of Inspector General


Although there is no assurance that miners will disclose violations of the plan or other
safety concerns to MSHA inspectors, this example demonstrates the need for MSHA to
train inspectors on how to effectively interview miners during regular safety and health
inspections.

By not diligently collecting information through inspections of all accessible areas of the
mine, proactively addressing potential risks identified such as the March 11 “bump,” and
maintaining good documentation of the inspection work performed including effectively
questioning miners on mining activities and conditions in the mine, MSHA was negligent
in concluding that the roof control plan continued to be adequate in protecting miners.

Objective 2 - How Were Decisions Made Regarding Rescue Operations At
              Crandall Canyon Mine in August 2007?

The Mine Act and 30 CFR 50 contain provisions that require MSHA and the mine
operator to take specific actions in the event of mine accidents. In addition, MSHA
guidance at the national and district level defines specific roles and responsibilities in
responding to mine emergencies. As stated in the Headquarters Handbook,

        The local MSHA district and field office coordinate the on site response to
        a mine emergency. Simultaneously, national coordination and
        communication responsibilities rest with MSHA headquarters officials.

Further, the Headquarters Handbook states that when an accident results in trapped or
missing miners, MSHA’s primary responsibilities include:

    •   protecting the safety of persons conducting rescue and recovery operations;
    •   aiding the recovery of trapped or missing miners;
    •   providing appropriate information to interested parties (e.g., families, media,
        Congress, etc.);
    •   conducting a thorough, objective investigation into the cause of the accident; and
    •   taking appropriate enforcement actions.

MSHA approved the current Emergency Response Plan for Crandall Canyon on
June 13, 2007. According to MSHA officials, 8 MSHA and mine operator employees
worked together to develop rescue plans at Crandall Canyon, with MSHA exercising
final approval authority over all underground activities. Throughout the rescue effort,
specific activities were proposed, discussed, and finalized during recurring meetings
and discussions between MSHA and mine officials. Although these meetings were not
documented, the resulting approved underground rescue activities were documented
through amendments to MSHA’s original withdrawal order and written rescue plans.
Decisions related to above ground rescue activities (i.e., drilling bore holes into the mine
from the surface) were generally not documented or formally approved by MSHA. After

8
 Officials and personnel from Murray Energy declined the OIG’s requests for interviews. The OIG does
not have the authority to subpoena or otherwise compel testimony from non-DOL employees.
                                                                    MSHA’s Roof Control Plan Reviews
                                                                           At the Crandall Canyon Mine
                                                  20                      Report No. 05-08-003-06-001
                                                 U.S. Department of Labor – Office of Inspector General


three rescue workers were killed on August 16, 2007, MSHA sought advice from a
group of external experts regarding the ability to safely continue underground rescue
efforts. Based on their input, MSHA ceased further underground rescue efforts.

All approved rescue activities were accomplished by mine operator personnel under the
direct observation of MSHA inspectors. MSHA also monitored all rescue operations
through two command centers - one located near the mine site and the other located at
MSHA Headquarters in Arlington, Virginia.

While gaining an understanding of the rescue operation decision-making process, an
item of potential concern came to our attention -- MSHA’s approval to allow television
reporters underground during rescue operations.

MSHA and the Mine Operator Held Recurring Meetings to Plan Rescue
Operations

Throughout the rescue effort at Crandall Canyon mine, specific activities were
proposed, discussed, and finalized during recurring meetings and discussions between
MSHA and mine officials. Scheduled meetings were generally conducted twice a day –
one in the early morning and one in the early evening. These meetings typically took
place in the command center MSHA established near the mine site. The number and
identity of participants in these meetings varied, but usually included the District
Manager and the mine operator’s General Manager. Other MSHA personnel
participated in these meetings to varying degrees of frequency. Although MSHA’s
Assistant Secretary and the Administrator for Coal were on-site, they typically did not
participate directly in these meetings. Instead, they were indirectly involved through
recurring conversations with the District Manager. In addition to the scheduled
meetings, mine and MSHA officials held ad hoc discussions as needed to address
changing circumstances.

MSHA Documented Allowable Rescue Activities Through a Withdrawal Order
and Written Rescue Plans

When District 9 officials were notified of the reported accident at Crandall Canyon mine,
a Field Office Supervisor in Price, Utah directed a Mine Inspector (inspector) to
immediately travel to the mine site. Consistent with MSHA policy, the inspector verbally
issued a withdrawal order to the mine operator’s General Manager prior to leaving for
the mine. Issued under Section 103(k) of the Mine Act, the “k order” prohibited the mine
operator from conducting any rescue activities without MSHA’s approval. After traveling
to the mine site, the inspector formalized the verbal order in writing and served it to the
mine operator’s Safety Director.

Between August 6, 2007, and September 14, 2007, MSHA personnel issued seven
amendments to the original “k order.” 9 Each amendment altered the type or extent of


9
    The withdrawal order was terminated on December 6, 2007.
                                                                    MSHA’s Roof Control Plan Reviews
                                                                         At the Crandall Canyon Mine
                                                  21                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


rescue activities that the mine operator could perform underground. See Exhibit 4 for a
summary of each amendment to the “k order.”

Within parameters established by the “k order,” the mine operator is responsible for
developing specific rescue plans. MSHA must approve these plans before they can be
implemented. According to MSHA officials, the written plans focus on activities that
involve a potential risk to personnel. Activities that do not pose a risk to personnel are
not reduced to writing or formally approved by MSHA. For example, in an effort to
locate the trapped miners, the mine operator drilled several holes from the surface into
the inaccessible areas of the mine. The first hole that was drilled was contained and
approved by MSHA in a written plan because there was a possible risk of a methane
gas explosion caused by the drill entering the mine. MSHA required that all personnel
be withdrawn from the mine prior to the drill bit breaching the mine. Because no
explosion occurred and because air readings showed no methane gas danger, the
drilling of future holes were not reduced to written plans or formally approved by MSHA.
MSHA was, however, involved in deciding where all holes would be located and closely
monitored the progress and results of each hole through entries in the command center
logs.

The District Emergency Plan states that a four member committee reviews all rescue
plans submitted by the mine operator. According to the MSHA District Manager, this
rescue plan review committee would typically include a representative from MSHA, the
mine operator, the State’s mine enforcement agency, and the miners’ union. However,
in the case of Crandall Canyon, the State of Utah did not have a mine enforcement
agency and Crandall Canyon was a non-union mine. As a result, a group composed of
the District Manager and Assistant District Manager, a representative from MSHA’s
Technical Support Unit; the Price, Utah, Field Office Supervisor on duty; and the mine
operator’s General Manager reviewed the rescue plans.

Between August 8, 2007, and August 15, 2007, the mine operator submitted and MSHA
approved 11 separate rescue plans. See Exhibit 5 for a summary of each approved
rescue plan.

MSHA Sought Advice from an External Panel of Experts After Three Rescue
Workers Were Killed

On the evening of August 16, 2007, a significant bounce occurred in the mine where
rescue teams were working. Three rescue workers (including one MSHA Inspector)
were killed and six others were injured. After this tragic event, underground rescue
efforts were halted, and MSHA and the mine operator mutually agreed to gather a team
of external ground control experts (see Exhibit 6 for a list of the team members) to
assess conditions and to provide recommendations regarding the possibility of
re-establishing underground rescue efforts.




                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            22                    Report No. 05-08-003-06-001
                                          U.S. Department of Labor – Office of Inspector General


The team of experts concluded that further rescue work inside the mine could not be
performed safely. MSHA concurred with this recommendation and prohibited any
additional underground rescue efforts.

MSHA Continually Monitored Rescue Activities

Almost immediately after receiving notification of the emergency, MSHA established
separate command centers near the mine site and at MSHA headquarters. MSHA
personnel staffed the command centers around the clock and obtained and recorded
information in log books about what was occurring at the mine. The log books at both
command centers captured similar information, including:

   •   progress updates on the advances underground
   •   air readings
   •   progress updates on the drilling of bore holes
   •   the number of workers underground
   •   any unusual activity (specifically bumps)
   •   plan approvals

In addition to the monitoring of activities by the command centers, MSHA inspectors
were always present at the site and directly monitored rescue activities. They had the
authority to stop any activity or order the withdrawal of all rescue personnel if they
observed a violation of the approved rescue plans or provisions of the Mine Act.

Finding 3 -    MSHA Lacked Guidance on Non-Rescue Activities

On August 8, 2007, MSHA gave approval for a Cable News Network (CNN) camera
crew to enter the mine to photograph conditions and activities where rescue workers
were attempting to reach the trapped miners. MSHA also allowed two family members
(who were miners, but not part of the rescue team) to travel underground and observe
the rescue operation. According to the Assistant Secretary, these decisions were made
to provide the family members of the missing miners with an understanding of the
difficult underground conditions and the ongoing rescue efforts.

The Assistant Secretary stated that the mine operator had made two separate attempts
to take photographs of underground conditions. However, inadequate lighting resulted
in poor quality pictures. During a subsequent press briefing on August 8, 2007, the
mine co-owner (Robert Murray) asked media members if they could provide equipment
capable of taking better quality pictures. Personnel from CNN offered to travel
underground and use their equipment to produce video of the conditions and activities.
The Assistant Secretary and the Administrator for Coal were present at the press
briefing when this idea was presented. The Assistant Secretary told us he gave
approval for the media members to travel into the mine. He did not believe the
reporters would be exposed to any unnecessary risk and he believed that the resulting
pictures would be very beneficial to the families of the missing miners.

                                                             MSHA’s Roof Control Plan Reviews
                                                                  At the Crandall Canyon Mine
                                           23                    Report No. 05-08-003-06-001
                                             U.S. Department of Labor – Office of Inspector General


Some local MSHA personnel disagreed with the decision. According to notes prepared
by a Field Office Supervisor, he disagreed with the decision and was present when
another inspector voiced his disagreement directly to the Assistant Secretary. The
Assistant Secretary stated to us that he did not recall anyone objecting to his decision.
The Field Office Supervisor’s notes also described the safety training provided to the
camera crew as “fast and not so good.” During our audit, MSHA inspectors in District 9
told us that they believed allowing the camera crew into the mine during the rescue
activities (a) was unsafe; (b) delayed rescue operations; (c) was a distraction for the
rescue workers. They also questioned the benefit to the missing miners’ families. The
media traveled into the mine under the supervision of MSHA Inspectors. While the
camera crew was underground, they traveled within about 55 feet of where coal was
being removed as part of the rescue operation.

A subsequent request from the mine operator to allow the CNN camera crew
underground for a second time was denied by MSHA. The Assistant Secretary told us
that the purpose of the original trip (i.e., to provide pictures to the miners’ families) had
been met and that there was no need for additional pictures.

We did not determine the appropriateness or the safety risks, if any, associated with the
Assistant Secretary’s decision. We did determine, however, that MSHA does not have
guidelines on when, for what purpose, and under what conditions to allow non-rescue
activities and non-rescue personnel into a mine during an active rescue operation. The
lack of such guidance increases the risk that all pertinent issues that need to be
considered in such a decision may not be appropriately considered, particularly in a
crisis situation.


Overall Conclusion

MSHA was negligent in carrying out its responsibility to protect the safety of miners.
Specifically, MSHA could not show that it made the right decision in approving the plan
or that the process was free from undue influence by the mine operator. MSHA did not
have a rigorous, transparent review and approval process for roof control plans
consisting of explicit criteria and plan evaluation factors, appropriate documentation,
and active oversight and supervision by Headquarters and District 9 management.
Further, MSHA did not ensure that subsequent inspections assessed compliance with,
and the effectiveness of, approved plans in continuing to protect miners. Finally,
requirements related to non-rescue activities need to be clarified.




                                                                MSHA’s Roof Control Plan Reviews
                                                                     At the Crandall Canyon Mine
                                              24                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


Recommendations

The conditions identified in our report can be addressed by MSHA within its current
statutory authority. We recommend that the Assistant Secretary for Mine Safety and
Health ensure that MSHA:

   1.   Develops a rigorous, standard, and transparent process delineating required
        tasks and analyses to be completed, and information to be considered, by
        District Offices in evaluating and approving proposed roof control plans.

   2.   Establishes policy requiring risk assessments specific to the particular mining
        operation prior to plan approval (e.g., seismic activity, history of the mine, depth
        of mine, coal strength, stability factors of pillars, etc.)

   3.   Establishes explicit criteria and guidance for assessing the quality of, and
        potential safety risk associated with, proposed plans.

   4.   Issues policy and guidance on the use of computer models, including
        appropriateness of input values and use of model results.

   5.   Issues policy mandating active oversight by District Managers by requiring
        documentation of how they reached their conclusions that approved plans will
        provide effective roof control.

   6.   Requires inspectors to document the work they perform in (a) effectively
        questioning miners on mining activities and conditions in the mine, and their
        basis for concluding on (b) the continued adequacy of roof control plans and (c)
        the completion and adequacy of miner training on such plans.

   7.   Issues policy establishing the conditions under which non-rescue activities and
        non-rescue personnel would be allowed on site during active rescue
        operations;

   8.   Establishes a Memorandum of Understanding with the Bureau of Land
        Management to share inspection or other information on mine conditions
        affecting safety.

   9.   Conduct a new review, consistent with the recommendations in this report, of
        all existing roof control plans.


Agency Response and OIG Conclusion

In a written response to our draft report, DOL’s Assistant Secretary for Mine Safety and
Health concurred with all of our recommendations and identified numerous corrective
actions that MSHA has initiated or plans to initiate.


                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            25                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


Notwithstanding this concurrence, the response described our use of the word
“negligent” as misleading. MSHA’s actions and inactions, taken as a whole, lead us to
conclude that MSHA lacked care and attention in fulfilling its responsibilities to protect
miners. MSHA could not show how it analyzed roof control plans, the criteria it
measured the plans against, the rationale for approving the plans, that the plans were
properly implemented, or that the plans continued to protect miners over time. These
deficiencies evidence MSHA’s serious and systemic lack of diligence in protecting
miners, and we do not believe it is misleading to use the term "negligent."

The response also expressed concern that our audit report implied that MSHA’s review
process had been subject to undue influence. The report neither states nor implies
such a conclusion. Rather, our report documents that MSHA could not show how it
arrived at its decisions to approve these plans nor that it did all the things necessary to
make the appropriate decision regardless of any pressure to expedite the process. As a
regulatory agency, MSHA must be able to show that its decisions are not influenced by
those it regulates and that they are sound based on rigorous, established and
documented processes and criteria.

The Assistant Secretary’s response also identified five instances in which he said the
report did not include information, available to the auditors, that he believed
contradicted our conclusions. First, the response notes that "by the time Murray Energy
requested expedited review of the roof control plan for the North barrier, the plan had
already been cleared by MSHA for signature by the District Manager, rendering it highly
unlikely that the request could have influenced the approval process." Although the
Roof Control Supervisor had signed off on the North barrier plan the day before a
Murray Energy request to expedite the approval, this is not conclusive evidence that
MSHA was not influenced by the mine operator. As we stated in our report, the
complete lack of a record of MSHA's review of the Crandall Canyon roof control plan
and amendments prohibited us from concluding on the propriety of MSHA's actions.

Second, the response notes that our report did not recognize the fact that "the local
inspector and roof control specialist traveled with the Roof Control Supervisor in an
underground inspection of the mine before the plan was approved." After receiving
MSHA’s written response, we clarified that “the local inspector and roof control
specialist” refers to one, not two separate persons. We agree that this individual
inspected the mine with the Roof Control Supervisor prior to the plan being approved
and had the opportunity to provide input. However, he was not the MSHA inspector
assigned to conduct the Regular Safety and Health Inspection at Crandall Canyon
during any of the preceding four quarters. The greatest benefit of receiving input from
“local inspectors” would be the fact that they are familiar with the mine through their
quarterly inspections.

Third, regarding our finding that District 9 did not consult with MSHA's Technical
Support Directorate, the response notes that we do not mention that the Roof Control
Supervisor who reviewed the plan was a professional engineer with years of experience
as Chief of MSHA’s former Technical Support Center in Denver. We agree with the

                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            26                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


stated qualifications and experience of the Roof Control Supervisor. We do not agree
that this justified him not seeking assistance from the current Technical Support Center
in reviewing the proposed plans at Crandall Canyon. In fact, MSHA acknowledges the
potential benefit of involving the Technical Support Center in selected plan reviews later
in its response. MSHA states it will issue guidance “regarding what type of roof control
… plans must be sent to MSHA’s Technical Support Roof Control Division for peer
review and concurrence [emphasis added].” Regardless of an individual’s personal
experience and qualifications, there is benefit in subjecting high-risk plans to
examination by multiple highly qualified reviewers.

Fourth, the response notes that experts at NIOSH and the University of Utah have
stated their agreement with the District Manager that historical information of seismic
activity has little predictive value with respect to future activity. However, the
documents provided by MSHA to support their assertion do not totally dismiss the value
of information obtained from seismic monitoring. In these documents, a University of
Utah professor stated that seismic monitoring could provide useful information when
integrated with other available information. A NIOSH official stated that there could be
value in applying seismic monitoring at mines with a history of bumps, as part of a larger
risk management program.

Finally, the response noted that none of MSHA’s criteria for approving a roof control
plan included consultation with the Bureau of Land Management. We agree that
MSHA’s procedures did not require it to obtain or share information with BLM.
However, they should have. As stated in the report, this was a source of relevant
information, because of BLM’s own inspections of the mine, which MSHA did not
consider.

Our findings and recommendations remain unchanged. See Appendix E for the
agency’s complete response to our draft report.




Elliot P. Lewis




                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            27                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                28                    Report No. 05-08-003-06-001
           U.S. Department of Labor – Office of Inspector General




Exhibits




                              MSHA’s Roof Control Plan Reviews
                                   At the Crandall Canyon Mine
            29                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                30                    Report No. 05-08-003-06-001
                                                           U.S. Department of Labor – Office of Inspector General


                                                                                                     Exhibit 1

         MSHA Coal Districts SOPs Compared to Required MSHA Management Controls


        Required MSHA Management                                         MSHA Coal District
                  Control                      1     2        3      4      5       6     7     8      9     10     11
1    Completion of final staff review at DO    Y     Y        Y      Y      Y       Y     Y     Y      N     Y      Y
2    Sets time frame for approving request     Y     N        N      Y      N       Y     Y     N      Y     Y      N
     (days)
3    Records date received                     Y     Y        Y      Y      Y       Y     Y     Y      Y      Y     Y
4    Records plan's progress through           Y     Y        Y      Y      Y       Y     Y     Y      N      Y     Y
     approval procedures
5    Shows date approval or denial letter      N     Y        N      Y      N       Y     N     N      N      N     Y
     mailed to operator
6    Shows distribution of mailing             N     Y        Y      Y      Y       Y     Y     N      Y      Y     Y
7    Uniform mine file is current              Y     N        N      Y      N       Y     Y     N      Y      N     Y
8    Identifies date for formal review         Y     N        Y      Y      Y       Y     Y     N      N      N     N
9    Check that required information is        N     Y        N      N      N       N     N     N      Y      N     Y
     submitted
10   Ensure that miners' representatives       Y     Y        N      Y      N       Y     N     N      N      Y     Y
     comments are addressed
11   Identify and evaluate unusual             Y     Y        Y      Y      Y       Y     Y     Y      N      Y     Y
     proposals or requests
12   Evaluate plan for provisions contrary     N     Y        Y      Y      Y       Y     Y     Y      Y      N     Y
     to standards or regulations
13   Check mine files for information          N     Y        Y      Y      Y       Y     Y     Y      Y      Y     Y
     related to plan adequacy
14   Check for communication with other        N     Y        N      N      N       Y     N     N      N      Y     Y
     plan approval groups, when
     appropriate
15   Technical specialist does on-site         Y     Y        Y      Y      Y       Y     Y     N      N      Y     Y
     review, when necessary
16   Acquire and consider field office input   Y     Y        Y      Y      Y       Y     Y     Y      N      Y     Y
     from local inspectors and address
     recommendations
17   Designated MSHA personnel contact         N     N        Y      N      Y       Y     Y     N      N      Y     Y
     operator for additional information
18   Discuss results of on-site evaluation     N     N        N      N      N       N     N     N      N      Y     N
     with operator and identified miners'
     representatives
19   DM receives recommendations to            Y     Y        Y      Y      Y       Y     Y     Y      N      Y     Y
     approve or disapprove plan
20   Promptly provide approvals or             Y     Y        Y      Y      Y       Y     Y     Y      Y      Y     Y
     amendments to field office
     supervisors for inclusion in uniform
     mine file
     Total Controls Addressed                  12    15      13     16     13       18    15     9     8     15     17
     (“Y” answers)
     Percent SOP comply with Required
     MSHA Management Control                   60%   75%    65%    80%    65%      90%   75%   45%   40%    75%     85%

                                                                                MSHA’s Roof Control Plan Reviews
                                                                                     At the Crandall Canyon Mine
                                                            31                      Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                32                    Report No. 05-08-003-06-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                   Exhibit 2

      Chronology of District 9 Crandall Canyon Plan Review and Approval

    Date                                          Event
Spring 2006   According to the District 9 Roof Control Supervisor, Mine officials
              discussed with him the possibility of pillar mining in Crandall Canyon
              Main West North and South barriers. District 9 officials viewed this as a
              high-risk process, so they agreed to review and approve the activity in
              four phases: North barrier entry development; North barrier pillar
              extraction; South barrier entry development; and South barrier pillar
              extraction.
9/8/2006      Prior to formally requesting approval to mine the barriers, the mine
              operator provided District 9 with two reports prepared by an external
              engineering firm (one dated July 20, 2006, and the other dated
              August 9, 2006) that assessed the mine operator’s plan for mining the
              Main West North and South barriers of Crandall Canyon.
10/2006       According to the Roof Control Supervisor, the District 9 roof control
              group reviewed the two external engineering reports. During this review
              a first-year roof control engineer ran the NIOSH computer models the
              external engineering firm used and obtained different results. The first-
              year engineer concluded that the engineering firm’s reports supported
              development of entries in the barriers, but did not adequately support
              pillar extraction.
11/11/2006    The mine operator submitted a proposed plan amendment to District 9
              staff to develop entries in the North barrier.
11/21/2006    District 9 Manager approved the mine operator’s plan to develop the
              North barrier entry.
11/21/2006    The District 9 Manager sent a letter to the mine operator stating that the
              plan for pillar extraction, as currently designed, would not be approved.
              The letter listed inconsistencies in the plan based on the District’s
              October 2006 technical review of the external engineering firm’s reports.
12/2006       According to the Roof Control Supervisor, after discussion with Crandall
              Canyon staff, the inconsistencies were resolved in favor of the external
              engineering firm’s results.
12/20/2006    The mine operator submitted a proposed plan amendment to extract
              pillars from the North barrier.
1/9/2007      As part of his review of the proposed plan amendment to extract pillars
              from the North barrier, the District 9 Roof Control Supervisor and the
              first-year engineer, visited the mine to evaluate ground conditions in the
              North barrier. The Roof Control Supervisor recommended that the mine
              operator install a double-breaker row of posts in each cross-cut adjacent
              to the bleeder entry. He and the mine operator agreed that “top coal”
              should be left in areas that were not sandstone roof.

                                                                                   (Continued)
                                                            MSHA’s Roof Control Plan Reviews
                                                                 At the Crandall Canyon Mine
                                          33                    Report No. 05-08-003-06-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                    Exhibit 2 (continued)

      Chronology of District 9 Crandall Canyon Plan Review and Approval

    Date                                          Event
1/10/2007    The mine operator submitted a proposed revision to the previously
             approved (November 21, 2007) North barrier development plan
             amendment. The revision would allow the mine operator to leave “roof
             [top] coal,” where this would improve roof conditions.
1/18/2007    District 9 approved the proposed revision (January 10, 2007) to the
             North barrier development plan.
1/31/2007    The District 9 Roof Control Supervisor emailed the mine operator to
             stipulate minimum requirements that would provide acceptable support
             for the North Main West barrier bleeder entry in the North barrier pillar
             extraction plan proposed on December 20, 2006. In a memorandum
             written after the August 6, 2007, incident, the Roof Control Supervisor
             states he had discussed this amendment with mine personnel during his
             January 9, 2007, mine visit.
2/2/2007     The District 9 Manager approved the mine operator’s revised
             December 20, 2006, plan amendment for pillar extraction in the North
             barrier. The Roof Control Supervisor stated that District 9 and the mine
             operator had an understanding that if stability problems occurred, pillars
             would be skipped and miners would move to stable ground to continue
             pillar extraction.
2/20/2007    The mine operator submitted a proposed plan amendment to District 9
             to develop entries in the South barrier.
3/8/2007     The District 9 Manager approved the mine operator’s
             February 20, 2007, plan amendment to develop the South barrier.
3/12/2007    The Roof Control Specialist stated that he was notified through a voice
             mail from the mine operator that pillar extraction had been permanently
             halted in the North barrier due to recurring bounces. According to the
             Roof Control Supervisor, the mine operator’s message did not indicate
             damage to the ribs or ventilation stoppings. Based on the description
             provided, the Roof Control Supervisor concluded there was no reason
             for District 9 to inspect the area.
5/15/2007    District 9 received another report prepared by the external engineering
             firm hired by Murray Energy (dated April 18, 2007) which redefined the
             pillar size for the South barrier as a result of problems encountered
             while extracting pillars in the North barrier. The report referenced a
             “large bump” that resulted in “heavy damage to the entries [of the north
             barrier].” Further, it stated that “The [increased] size of pillar is expected
             to provide a reliable level of protection against problematic bumping for
             retreat mining under cover reaching 2,200 ft…Skipping pillars should be
             avoided in the south barrier, particularly under the deepest cover.”

                                                                                   (Continued)
                                                            MSHA’s Roof Control Plan Reviews
                                                                 At the Crandall Canyon Mine
                                          34                    Report No. 05-08-003-06-001
                                        U.S. Department of Labor – Office of Inspector General


                                                                   Exhibit 2 (continued)

      Chronology of District 9 Crandall Canyon Plan Review and Approval

    Date                                        Event
5/16/2007    The mine operator submitted a proposed plan amendment to extract
             pillars in the South barrier.
5/22/2007    The District 9 Roof Control Supervisor stated that as part of his review of
             the proposed amendment he and a Roof Control Specialist visited the
             mine to evaluate the ground conditions. The Roof Control Supervisor’s
             post-accident memo of August 14, 2007, provides extensive summary of
             observations made and discussions held with the mine operators during
             the site visit. According to the August 14, 2007, memo, the Roof Control
             Supervisor held discussions with the mine operator regarding leaving
             adequate pillars around the sump area and bleeder entry. The mine
             operator agreed not to mine the pillars from cross-cut 139 to cross-cut
             142 to protect the bleeder entry and they would skip these pillars during
             retreat mining.
6/15/2007    The District Manager approved the mine operator’s plan to extract pillars
             in the South barrier. The approved plan required leaving additional
             pillars near the bleeder entry as required by the Roof Control
             Supervisor.
8/14/2007    The Roof Control Supervisor wrote a summary of District 9 review and
             approval of plan amendments which preceded the August 6, 2007,
             accident.




                                                           MSHA’s Roof Control Plan Reviews
                                                                At the Crandall Canyon Mine
                                         35                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                36                    Report No. 05-08-003-06-001
                        U.S. Department of Labor – Office of Inspector General


                                                                  Exhibit 3

6-Month Roof Control Plan Review (MSHA Form 2000-204)




                                           MSHA’s Roof Control Plan Reviews
                                                At the Crandall Canyon Mine
                         37                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                38                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                     Exhibit 4

                      Summary of 103 (k) Order and Amendments

 Order Number          Date     Time (MDT)                        Description
7287831             8/6/2007    4:41 AM          Prohibited the mine operator from
(initial k order)                                conducting any rescue activities without
                                                 MSHA's approval.
7287831-01          8/6/2007    6:00 AM          Allowed "...necessary personnel to travel
                                                 underground to make repairs…open the
                                                 number one seal in the Old Main West
                                                 entries inby crosscut 118 and to use mine
                                                 rescue teams to explore within
                                                 established mine rescue procedures."
7287831-02          8/7/2007    1:50 PM          Allowed the mine operator to "...use a
                                                 camera underground in accordance with
                                                 their currently approved photography
                                                 plan. The use of the camera will be
                                                 limited to photographs depicting
                                                 underground conditions for the purpose of
                                                 informing family members and/or
                                                 members of the media of the current
                                                 underground conditions in the mine and
                                                 the equipment used in the recovery
                                                 efforts."
7287831-03          8/7/2007    6:20 PM          Permitted "…the necessary personnel to
                                                 travel underground to make repairs to
                                                 damaged ventilation devices, clean in and
                                                 around feeder breaker and advance in
                                                 the #1 entry."
7287831-04          8/8/2007    10:18 AM         Allowed "…recovery operations to
                                                 continue in accordance with approved
                                                 site specific plans."
7287831-05          8/16/2007   11:35 PM         "…prohibit[ed] anyone from traveling inby
                                                 crosscut #107 Main West. MSHA must
                                                 be notified and permission granted before
                                                 performing any other activity in the mine."
7287831-06          9/4/2007    3:55 PM          Defines requirements for performing work
                                                 inby crosscut 90 of Main West.
7287831-07          9/14/2007   2:45 AM          Changed the type of inspection from E08
                                                 (non-injury accident investigation) to an
                                                 E09 (mine emergency operations) and
                                                 prohibited any work inby crosscut 50
                                                 Main West.
7287831-08          12/6/2007   11:30 AM         Termination of the k order

                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            39                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                40                    Report No. 05-08-003-06-001
                                     U.S. Department of Labor – Office of Inspector General


                                                                               Exhibit 5

             Summary of Rescue Plans Approved by MSHA
                 August 7, 2007 – August 16, 2007

 Date of Plan     Time of Plan
  Approval          Approval                  Summary of Contents
Aug 08, 2007     12:02 am (pg 1)    Procedures for removal of loose coal in
                  1:05 am (pg 2)    Entry #1 of South Block of Main West
Aug 10, 2007     No time stated     Restrictions regarding working inby
                                    supported areas; rock dusting
                                    requirements
Aug 10, 2007     12:10 pm           Procedures and restrictions for
                                    exploring Entry #1
Aug 10, 2007       1:10 pm          Plan for drilling bore hole #1 (2.5 inch)
                                    and #2 (8.5 inch) [Note 1]
  [Note 2]           [Note 3]       Procedures for clearing Entry #1
Aug 12, 2007     12:04 pm           Installation of sample tubing in Main
                                    West Seals
Aug 12, 2007       4:10 pm          Procedures for opening seal in Main
                                    West
Aug 13, 2007       8:15 pm          Procedures for loading loose material in
                                    Entry #1
Aug 14, 2007       8:50 am          Calibration and maintenance of
                                    atmospheric monitoring system at the
                                    Main West and Main West North barrier
                                    seals
Aug 15, 2007     10:00 am           Plan for training miners brought in from
                                    other mines to assist in rescue
                                    operations
Aug 15, 2007     10:40 am           Permission to use workers certified
                                    outside Utah in rescue operations

Note 1:   Plans related to drilling subsequent bore holes were not
          summarized in written plans and approved by MSHA. MSHA did
          record the location of subsequent bore holes on a mine map
          maintained in its command centers and progress of drilling activities
          were recorded in the command center logs.
Note 2:   Date of approval signature is not indicated. Document heading
          contains date of “8 11 07.”
Note 3:   Time of approval signature is not indicated. Document is marked
          “Received 6:30 pm.”




                                                        MSHA’s Roof Control Plan Reviews
                                                             At the Crandall Canyon Mine
                                      41                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                42                    Report No. 05-08-003-06-001
                                        U.S. Department of Labor – Office of Inspector General


                                                                                  Exhibit 6

                        Ground Control Expert Committee

       Name                                     Organization
Keith Heasley, PhD Professor, Mining Engineering, West Virginia University
                   (developed LAMODEL while a NIOSH employee)
Hamid Maleki       President, Maleki Technologies, Inc. (engineering consultant with
                   extensive western mining experience)
Chris Mark, PhD    Chief of the Rock Mechanics Section, NIOSH’s Bruceton
                   Research Center (developed ARMPS model and authored many
                   papers on retreat mining)
Tony Iannacchione  Mining engineer, NIOSH Bruceton Research Center (extensive
                   experience in pillar stability and mining design)
Rick Olsen         Engineering consultant (experience in mountain bumps and
                   western mining environment)
Morgan Moon        Engineering consultant (extensive underground and mountain
                   bump experience)
Peter Swanson, PhD Geophysicist, NIOSH Spokane Research Laboratory (conducts
                   research to reduce hazards from rock mass instabilities in
                   underground mining)




                                                           MSHA’s Roof Control Plan Reviews
                                                                At the Crandall Canyon Mine
                                         43                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                44                    Report No. 05-08-003-06-001
             U.S. Department of Labor – Office of Inspector General




Appendices




                                MSHA’s Roof Control Plan Reviews
                                     At the Crandall Canyon Mine
              45                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                46                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

Mine Safety and Health Administration (MSHA)

The Federal Mine Safety and Health Act of 1977, as amended, established MSHA,
which is responsible for enforcing Federal laws and regulations and implementing
policies intended to protect the safety and health of the nation’s miners.

As a result of a sharp increase in coal mine fatalities in calendar year 2006, Congress
enacted the Mine Improvement and New Emergency Response (MINER) Act of 2006.
Among its provisions for underground coal mines, the MINER Act requires operators to
develop and MSHA to approve emergency response plans for every mine and
improvements in rescue team training and response. Key items to be provided for in
every mine’s emergency response plan include (a) a redundant means of
communication with the surface for persons underground, (b) a means for above ground
personnel to determine the current, or immediately pre-accident, location of all
underground personnel (consistent with available technology), and (c) emergency
supplies of breathable air for individuals trapped underground.

MSHA is responsible for administering the provisions of both the Mine Act and MINER
Act, including approving various mine plans (e.g., roof control), performing periodic
inspections of each mine, and citing mine operators for safety and health violations.
Within MSHA, the Office of Coal Mine Safety and Health (Coal) is responsible for
enforcing the Mine Act and the MINER Act at coal mines. Coal administers 11 districts
(listed below) and 44 associated field offices with approximately 1,175 staff. Coal has
jurisdiction over approximately 2,300 coal mines in 26 states. Eight of its 11 districts are
located in the Eastern United States near coal seams located in or near the
Appalachian Mountains.

                                11 MSHA Coal Districts

    1     Anthracite coal regions in Pennsylvania
    2     Bituminous coal regions in Pennsylvania
    3     Maryland, Ohio, Northern West Virginia
    4     Southern West Virginia
    5     Virginia
    6     Eastern Kentucky
    7     Central Kentucky, North Carolina, South Carolina, Tennessee
    8     Illinois, Indiana, Iowa, Michigan, Minnesota, Northern Missouri, Wisconsin
    9     All States west of the Mississippi River, except Minnesota and Northern
          Missouri
    10    Western Kentucky
    11    Alabama, Georgia, Florida, Mississippi, Puerto Rico, Virgin Islands


                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            47                    Report No. 05-08-003-06-001
                                          U.S. Department of Labor – Office of Inspector General


Coal received $154.6 million for its FY 2008 budget—close to a 30 percent increase
over its FY 2007 budget.

Crandall Canyon Mine

The Crandall Canyon Coal Mine is one of 18 coal mines in Utah. It is an underground,
bituminous (soft) coal mine, located 16 miles west of Huntington (Emery County), Utah
on the eastern edge of the Wasatch Plateau coal field.

Murray Energy, through UtahAmerican Energy (a wholly-owned subsidiary), owns 50
percent of Crandall Canyon mine. Murray Energy acquired the mine when it bought
Andalex Resources, Inc., and its four subsidiaries in August 2006. Intermountain Power
Agency, a Utah cooperative that generates electrical power for its member
municipalities in Utah and California, has owned the other 50 percent of the mine since
1990.

Murray Energy is a privately-held coal mine company, headquartered in Cleveland,
Ohio. As of February 19, 2008, MSHA identified the firm’s president, Robert E. Murray,
as the controller for 52 coal mines in the United States.

Genwal Resources, Inc., a subsidiary of UtahAmerican Energy, Inc., has been the mine
operator since 1995. Data from the State of Utah show that production at the mine had
dropped from 3.2 million short tons in 2002 to 625,000 short tons in 2007. According to
MSHA, employment at the mine dropped from an average of 86 for the first two quarters
of 2006 to 58 for the same period in 2007.

For the 12 months during which Murray Energy co-owned the mine prior to the incident,
there were 3 accidents reported at the mine, but no fatalities. During this same period,
MSHA issued 68 citations to the mine operator for violating various Federal standards.
Three of these citations related to roof control issues (roof bolting; marking of
unsupported roof; and inadequate support). As of March 6, 2007, MSHA had assessed
$44,125 in fines related to these 68 citations.

Fatal Incident at Crandall Canyon

On Monday, August 6, 2007, at approximately 2:52 a.m., six miners were trapped when
"a major coal bump/bounce" occurred in the South barrier of the Main West pillar
section. All four entries were rendered impassable approximately 2,000 feet out from
the working section. During subsequent underground rescue and recovery efforts, three
rescue workers were fatally injured on August 16, 2007. Video images taken through a
series of holes drilled into the inaccessible areas of the mine between August 6, 2007,
and August 30, 2007 failed to locate the missing miners. MSHA suspended all
underground rescue work on August 16, 2007, and it suspended all efforts to locate the
six miners on August 31, 2007.



                                                             MSHA’s Roof Control Plan Reviews
                                                                  At the Crandall Canyon Mine
                                           48                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


MSHA Approval of Retreat Mining at Crandall Canyon Mine

MSHA’s records indicate the first plan for retreat mining at Crandall Canyon was
approved on September 27, 1989. Before Murray Energy acquired the Crandall
Canyon mine in 2006, all longwall mining was completed and room and pillar mining
had been conducted at various locations. Between July 3, 2002, and the
August 6, 2007, incident, MSHA District 9 approved a roof control base plan, 5 revisions
to the base plan and 11 site-specific amendments.

For Genwal Resources’ plan to retreat mine in the Main West barriers, District 9 officials
agreed to review and approve the activity in four phases: (a) North barrier entry
development, (b) North barrier pillar extraction, (c) South barrier entry development, and
(d) South barrier pillar extraction.

For a chronology of MSHA’s approval of retreat mining at Crandall Canyon between
spring 2006 and August 6, 2007, see Exhibit 2.

Retreat Mining

Retreat mining is a high risk underground mining technique, designed to maximize the
amount of coal reserves recovered. It describes a process of removing pillars of coal
that had previously been left to support the mine roof. Miners remove pillars as they
“retreat” toward the mine entrance, allowing the unsupported roof to collapse behind
them. The process is risky due to stresses on the final pillars and the potential for
unplanned cave-ins. As of September 1, 2007, the Crandall Canyon mine was one of
211 coal mines with MSHA-approved retreat mining plans.

MSHA data show that Utah coal mines engaged in retreat mining were susceptible to
“bumps.” Bumps are sudden, violent expulsions of coal from one or more pillars,
accompanied by earth tremors. Bumps occur in coal mines where a strong, thick,
massive sandstone roof rests directly on the coal with no cushioning layer of shale
between. Fatalities and injuries have resulted when these destructive events occur.
With more mining operations moving into reserves under deeper overburden or below
previously-mined areas, geologists and engineers continue working to identify methods
to prevent, and, in the event they do occur, to mitigate the consequences of, bumps in
such new circumstances.

From January 2002 to July 2007, MSHA received reports from mine operators of 52
“bumps” that occurred in U.S. coal mines. Of this total, 31 occurred at mines within the
State of Utah, two of which occurred at Crandall Canyon (February and
August of 2002).

MSHA Roof Control Plan Approval and Oversight Process

Roof control plans identify the methods used in a mine to control the collapse or shifting
of the roof, face or ribs in underground coal mines. Each mine operator must develop

                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            49                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


and follow a roof control plan that is suitable to the prevailing geological conditions, and
the mining system to be used at the mine. This proposed plan, and any subsequent
revisions, is submitted in writing, to the MSHA District Manager. Federal regulations at
30 CFR sections 75.220 through 75.223 address the process for review and approval of
roof control plans, including assigning this responsibility to the District Manager. Each
MSHA District has a SOP that defines how proposed plans are to be reviewed and
evaluated.

Computer Models for Assessing Roof Stability

NIOSH, a Federal agency within the Department of Health and Human Services’
Centers for Disease Control, offers several computer models to help assess roof
stability in coal mines and design safer mining operations. The two main NIOSH
models are the Analysis of Retreat Mining Pillar Stability (ARMPS) and LaModel.

ARMPS was developed by NIOSH in 1995 to help prevent pillar failures through better
pillar design, thereby enhancing safety for underground mine workers. It has become
widely accepted within the mining community. The computer program estimates the
loads applied to, and the load bearing capacities of, coal pillars used in retreat mining
and calculates a stability factor. The program was verified using numerous pillar retreat
case histories collected from across the U.S. According to NIOSH literature, the
program is well suited for initial feasibility studies where no previous experience is
available and can be calibrated using site specific experience. However, the NIOSH
literature also states that the ARMPS stability factor may be less meaningful in cases
where the mine depth exceeds 750 feet.

LaModel is software that calculates the stresses and displacements in coal mines. It
can be used to investigate and optimize pillar sizes and layout in relation to pillar stress
or bump potential.

Mine Rescue and Recovery Operations

The Mine Act and 30 CFR 50 contain provisions that require MSHA and the mine
operator to take specific actions in the event of mine accidents. According to MSHA’s
Mine Emergency Response Procedures Handbook, MSHA's primary responsibilities
include: protecting the safety of persons conducting rescue and recovery operations;
aiding the recovery of trapped or missing miners; conducting a thorough, objective
investigation into the cause of the accident; and taking appropriate enforcement actions.

The mine operator must notify MSHA, by calling a toll free number, within 15 minutes of
a reportable accident as defined under 30 CFR 50.2. The MSHA call center informs the
appropriate MSHA District Office. The District Office (and appropriate Field offices)
coordinates the on-site response. The District Manager or other designated District
official completes Form 7000 30, Preliminary Information on a Mine Emergency, and
relays information on the emergency to the Office of Coal Mine Safety and Health
Administrator.

                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             50                    Report No. 05-08-003-06-001
                                         U.S. Department of Labor – Office of Inspector General




The Field Office contacts the mine to obtain more information and immediately sends an
inspector to assess the situation. The inspector will issue the appropriate order of
withdrawal necessary to ensure the health and safety of the miners.

In most serious accident situations, MSHA issues a withdrawal order under provisions
of Section 103(k) of the Mine Act (“k order”). The “k order” allows the operator to
maintain control of a mine’s assets and operations, and develop and execute rescue or
recovery plans that MSHA approves. The District Manager, or senior MSHA official
on-site, and a mine operator representative generally sign and date the plan approval.




                                                            MSHA’s Roof Control Plan Reviews
                                                                 At the Crandall Canyon Mine
                                          51                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                52                    Report No. 05-08-003-06-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to accomplish two specific objectives:

   •    Did MSHA’s Review, Approval, and Oversight of the Roof Control Plan for
        Crandall Canyon Mine Provide Reasonable Assurance that Miners Were
        Protected?

   •    How Were Decisions Made Regarding Rescue Operations at Crandall Canyon
        Mine in August 2007?

Scope

For Objective 1, our scope covered the roof control plan amendments submitted while
the mine was co-owned and operated by Murray Energy and up to the day before the
tragedy (August 1, 2006 through August 5, 2007). Our audit work was not intended to
determine (a) the cause of the August 2007 accident, (b) whether the roof control plan
was adequate, or (c) whether the mine operator complied with the approved plan.

For Objective 2, our scope covered the period during which active rescue operations
occurred at the mine (August 6, 2007, through August 31, 2007). We focused on how
decisions were made during the rescue operations, but did not conclude on the
adequacy of those decisions.

The OIG served a subpoena on Murray Energy Corporation on August 24, 2007, that
requested correspondence, e-mails, and other documents related to Crandall Canyon
mine, for the period January 1, 2006, to August 6, 2007. We received extensive
documents from the company (some of which were redacted) between
September 26, 2007, and March 3, 2008.

We attempted to interview employees of Murray Energy and its subsidiaries, but they
declined on the advice of their counsel. Because the OIG does not have the authority to
subpoena or otherwise require testimony from non-DOL employees, we were not able
to compel their participation.

Methodology

To accomplish Objective 1, we obtained an understanding of MSHA’s roof control plan
approval and oversight policies and procedures, and of applicable Federal laws and
regulations. We interviewed Coal officials at Headquarters, District 9 officials,
management and inspectors at District 9’s Price, Utah, and Delta, Colorado, Field
Offices, and District 4 (Mount Hope, West Virginia) and District 6 (Pikeville, Kentucky)
officials.
                                                             MSHA’s Roof Control Plan Reviews
                                                                  At the Crandall Canyon Mine
                                           53                    Report No. 05-08-003-06-001
                                          U.S. Department of Labor – Office of Inspector General




We reviewed the roof control plan amendments, and related documents, submitted
while Crandall Canyon mine was co-owned and operated by Murray Energy. We also
reviewed available documents related to MSHA’s review and approval of these
amendments and documents related to inspections MSHA performed during our audit
period.

In an effort to determine whether the review and approval process for Crandall Canyon
differed from the process typically used in District 9 or in other District Offices, we
judgmentally selected and reviewed roof control plans for two additional mines in
District 9 and three mines in Districts 4 and 6 that were engaged in retreat mining. We
judgmentally selected Districts 4 and 6 from among Coal’s 11 Districts based on the
number of underground mines that conducted retreat mining in those districts (59 mines
and 41 mines, respectively). For each mine, we reviewed documentation related to the
District Office’s approval process and 6-month evaluation of the plans to determine if
they complied with the written roof control plan SOP and oversight process. At each
District Office, we interviewed the District Manager, Assistant District Manager for
Technical Services, Roof Control Group employees, including Supervisors and
Specialists, and field office supervisors and inspectors.

Additionally, we interviewed selected personnel with the Bureau of Land Management,
including the inspector who inspected the Crandall Canyon mine from 2004 through
2007. We also interviewed NIOSH and MSHA’s Pittsburgh Safety and Health
Technology Center personnel to obtain an understanding of computer software
available to assess roof stability in underground coal mines. As explained in the Scope
section above, we were unable to interview employees of Murray Energy and its
subsidiaries.

We reviewed documents provided to OIG by MSHA and Murray Energy. In addition, we
reviewed written responses and related materials provided by the engineering firm that
Murray Energy contracted with in response to written questions from MSHA’s Crandall
Canyon Accident Investigation team.

Some key tasks included:

   •   Comparing the MSHA-approved Crandall Canyon roof control plan, including the
       five amendments submitted between August 2006 and May 2007, against
       regulatory requirements and District 9’s “Roof Control Group Standard Operating
       Procedures for Roof Control Plans.”

   •   Reviewing and summarizing MSHA records related to Regular Safety and Health
       Inspections conducted at the Crandall Canyon mine during FY 2006 and
       FY 2007, including completion of the 6-month Roof Control Plan Evaluation
       (MSHA Form 2000 204).



                                                             MSHA’s Roof Control Plan Reviews
                                                                  At the Crandall Canyon Mine
                                           54                    Report No. 05-08-003-06-001
                                             U.S. Department of Labor – Office of Inspector General


To accomplish Objective 2, we interviewed MSHA’s Assistant Secretary, the Office of
Coal Mine Safety and Health Administrator, and the Accident Investigation Program
Manager at MSHA Headquarters in Arlington, Virginia. We also interviewed personnel
at MSHA’s District 9 Office in Denver, Colorado, and at the District 9 Price, Utah, and
Aztec, New Mexico, Field Offices. We interviewed these officials and reviewed various
documents to obtain an understanding of the initial “k order” and revisions, and the
rescue decision making process related to the Crandall Canyon incident of
August 6, 2007.

During the audit, we made site visits to MSHA Headquarters in Arlington, Virginia;
Coal’s District 9 Office in Denver, Colorado, District 9’s Price, Utah, and Delta,
Colorado, Field Offices; District 6 Office in Pikeville, Kentucky; and District 4 Office in
Mount Hope, West Virginia.

In planning and performing our audit, we considered MSHA’s internal controls that were
relevant to our audit objectives by obtaining an understanding of those controls, and
assessing control risk for the purposes of achieving our objectives. The objective of our
audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as a whole. Our consideration of MSHA’s
internal controls relevant to our audit objectives would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives.

Criteria

We used the following criteria to perform this audit:

   •   Federal Mine Safety and Health Act of 1977, as amended
   •   Mine Improvement and New Emergency Response (MINER) Act of 2006
   •   General Accountability Office, Standards for Internal Control in the Federal
       Government, November 1999
   •   30 Code of Federal Regulations Part 50, Notification, Investigation, Reports and
       Records of Accidents, Injuries, Illnesses, Employment, and Coal Production in
       Mines
   •   30 Code of Federal Regulations Part 75, Mandatory Safety Standards –
       Underground Coal Mines
   •   MSHA Program Policy Manual, dated October 23, 2003
   •   MSHA General Coal Mine Inspections Procedures Handbook, dated
       January 2006
                                                                MSHA’s Roof Control Plan Reviews
                                                                     At the Crandall Canyon Mine
                                              55                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                56                    Report No. 05-08-003-06-001
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

ARMPS                        Analysis of Retreat Mining Pillar Stability

BLM                          Bureau of Land Management

CFR                          Code of Federal Regulations

CNN                          Cable News Network

Coal                         Office of Coal Mine Safety and Health

CY                           Calendar Year

FY                           Fiscal Year

MDT                          Mountain Daylight Time

Mine Act                     Federal Mine Safety and Health Act of 1977

MINER Act                    Mine Improvement and New Emergency Response
                              Act of 2006

MSHA                         Mine Safety and Health Administration

NIOSH                        National Institute for Occupational Safety and Health

OIG                          Office of Inspector General

Plan                         Roof Control Plan and amendments

SOP                          Standard Operating Procedure




                                                        MSHA’s Roof Control Plan Reviews
                                                             At the Crandall Canyon Mine
                                      57                    Report No. 05-08-003-06-001
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                  MSHA’s Roof Control Plan Reviews
                                       At the Crandall Canyon Mine
                58                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix D
Glossary of Mining Terms

Active workings – Any place in a mine where miners are normally required to work or
travel, which are ventilated and inspected regularly.

Anthracite Coal - A hard, black lustrous coal containing a high percentage of fixed
carbon and a low percentage of volatile matter. Commonly referred to as hard coal, it is
mined in the United States, mainly in eastern Pennsylvania.

ATRS – (Automated Temporary Roof Support) – means a mechanical device used to
temporarily support the roof while roof bolts are being installed.

Barrier - Solid blocks of coal left between two mines or sections of a mine to prevent
accidents due to inrushes of water, gas, or from explosions or a mine fire.

Barrier Pillars – Any large pillar entirely or relatively unbroken by roadways or airways
that is left around a property to protect it against water and squeezes from adjacent
property, or to protect the latter property in a similar manner.

Bituminous Coal - A middle rank coal (between subbituminous and anthracite) formed
by additional pressure and heat on lignite. Usually has a high Btu value and may be
referred to as "soft coal."

Bleeder entry - Special air course developed and maintained as part of the mine
ventilation system and designed to continuously move air-methane mixtures away from
the active workings and into mine-return air courses.

Borehole - Any deep or long drill-hole usually associated with a diamond drill.

Bottom Coal - Coal below the undercut-(To cut below or in the lower part of a coal bed
by chipping away the coal with a pick or mining machine. Undercutting is usually done
on the level of the floor of the mine); it may or may not be removed.

Bounce – See Bump Below

Breaker Row – timbers set to break the roof off at a prearranged line during retreat
mining.

Bump, Bounce (or burst) - A violent dislocation of the mine workings which is
attributed to severe stresses in the rock surrounding the workings.

Coal Strength – The stress at which coal ruptures or fails.




                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            59                    Report No. 05-08-003-06-001
                                               U.S. Department of Labor – Office of Inspector General


Convergence Conditions – Loss of height when a coal seam is extracted on a
longwall face, as the roof lowers and the floor lifts. Convergence is an important factor
in thin-seam mining.

Cover - The overburden of any deposit.

Crosscut - A passageway driven between the entry and its parallel air course or air
courses for ventilation purposes.

Deep (Coal) Cover – Coal seams lying at a depth of 1,800 ft (549 m) or more below the
surface.

Default Value – 900 psi for coal strength is used in the NIOSH developed for LA Model
computer programs as the “default value” for all mining calculations.

Drift Opening – An underground coal mine opening in which the entry or access is
above water level and generally on the slope of a hill, driven horizontally into a coal
seam.

Development mining - Work undertaken to open up coal reserves as distinguished
from the work of actual coal extraction.

Main Entryway – A term used in the United States for the principal horizontal gallery
giving access to an underground mine and used for haulage, ventilation, etc.

Face - The exposed area of a coal bed from which coal is being extracted.

Feeder Breaker - The primary crushers designed to break materials against the deck
and chain conveyor system. The crushed product is expected to be “conveyable”,
limiting damage to the belt conveyor.

Inby - In the direction of the working face.

Longwall – A long face of coal.

Longwall face – the exposed area of a long face of coal which is being extracted.

Outburst – The name applied to the violent evolution of combustible gases (usually
together with large quantities of coal dust) from a working face. The occurrence is
violent and may overwhelm the workings and fill the entire district with gaseous
mixtures. Roadways advancing into virgin and stressed areas of coal are particularly
prone to outbursts in certain seams and faults often intersect in the area.

Outby - Nearer to the shaft, and hence farther from the working face. Toward the mine
entrance. The opposite of inby.


                                                                  MSHA’s Roof Control Plan Reviews
                                                                       At the Crandall Canyon Mine
                                                60                    Report No. 05-08-003-06-001
                                            U.S. Department of Labor – Office of Inspector General


Overburden – Layers of soil and rock covering a coal seam.

Pillar – An area of coal left to support the overlying strata in a mine; sometimes left
permanently to support surface structures, sometimes systematically removed to
regulate subsidence.

Pillar Design –can be done using various computer programs provided by NIOSH-see
pillar definition above for additional information.

Pillar Extraction - The recovery or working away of the pillars of coal that were left
during the first operation of working in the pillar-and-stall method. Also called pillar
mining.

Retreat mining - A system of robbing pillars in which the robbing line, or line through
the faces of the pillars being extracted, retreats from the boundary toward the shaft or
mine mouth.

Rib - The side of a pillar or the wall of an entry. The solid coal on the side of any
underground passage.

Rock Dusting - The dusting of underground areas with powdered limestone to dilute
the coal dust in the mine atmosphere and on the mine surfaces, thereby reducing
explosion hazards.

Roof - The stratum of rock or other material above a coal seam; the overhead surface
of a coal working place. Same as "back" or "top."

Roof Bolts – long steel bolts driven into the roof of underground excavations to support
the roof, preventing and limiting the extent of roof falls. The unit consists of the bolt (up
to 4 feet long), steel plate, expansion shell, and pal nut. The use of roof bolts eliminates
the need for timbering by fastening together, or "laminating," several weaker layers of
roof strata to build a "beam."

Roof Control - The scientific study of the behavior of rock undermined by mining
operations and the most effective measures of controlling movements and failure. The
subject is comprehensive, including the systematic measurement of the movement of
strata and the forces and stresses involved. An attempt is made to correlate data with
rock types and the type of excavation.

Scaling – Removal of loose rock from the roof or walls. This work is dangerous and a
long bar (called a scaling bar) is often used.

Section - A portion of the working area of a mine.

Separation between roof segments – The distance between any two parts of an index
plane (e.g., roof, bed or vein) disrupted by a fault.

                                                               MSHA’s Roof Control Plan Reviews
                                                                    At the Crandall Canyon Mine
                                             61                    Report No. 05-08-003-06-001
                                           U.S. Department of Labor – Office of Inspector General




Seismic Event – Sudden failure due to stresses exceeding the strength of the rock
mass or a discontinuity. The resulting emission and radiation of kinetic energy in the
form of ground vibrations causes a noticeable 'shock' or tremor.

Sump Area - The bottom of a shaft, or any other place in a mine, that is used as a
collecting point for drainage water.

Top Coal – coal at or near the top of the working face.

Ventilation Stopping - Permanent stoppings are utilized to control and direct the
ventilation air flow through underground coal mines to dilute and render harmless
methane, entrained coal dust, and other contaminants at the working face and other
areas of the mine. The Ventilation controls section (§ 75.333) of Title 30 Code of
Federal Regulations (30CFR) requires that permanent stoppings be built and
maintained between intake and return air courses beginning at the third connecting
crosscut outby the working face, and separate other air courses and direct air as
specified.

Voids - A general term for pore spaces or other reopenings in rock. In addition to pore
spaces, the term includes vesicles, solution cavities, or any openings either primary or
secondary.

Withdrawal Order – In most serious accident situations, MSHA issues a withdrawal
order under provisions of Section 103(k) of the Mine Act ("k order"). The k order allows
the operator to maintain control of a mine's assets and operations, and develop and
execute rescue or recovery plans that MSHA approves. Only items considered to be
critical with specific degrees of risk should be incorporated. The District Manager or
senior MSHA official on-site and a mine operator representative generally sign and date
the plan approval.




                                                              MSHA’s Roof Control Plan Reviews
                                                                   At the Crandall Canyon Mine
                                            62                    Report No. 05-08-003-06-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix E
Agency Response to Draft Report




                                                     MSHA’s Roof Control Plan Reviews
                                                          At the Crandall Canyon Mine
                                   63                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 64                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 65                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 66                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 67                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 68                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 69                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 70                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 71                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 72                    Report No. 05-08-003-06-001
U.S. Department of Labor – Office of Inspector General




                   MSHA’s Roof Control Plan Reviews
                        At the Crandall Canyon Mine
 73                    Report No. 05-08-003-06-001
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210



                                                      MSHA’s Roof Control Plan Reviews
                                                           At the Crandall Canyon Mine
                                    74                    Report No. 05-08-003-06-001
